<html>
<title> - WHERE IS TURKEY HEADED? GEZI PARK, TAKSIM SQUARE, AND THE FUTURE OF THE TURKISH MODEL</title>
<body><pre>[Senate Hearing 113-151]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-151

 
WHERE IS TURKEY HEADED? GEZI PARK, TAKSIM SQUARE, AND THE FUTURE OF THE 
                             TURKISH MODEL

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
86-350                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7017001f301305030418151c005e131f1d5e">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON EUROPEAN AFFAIRS        

           CHRISTOPHER MURPHY, Connecticut, Chairman        

JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
EDWARD J. MARKEY, Massachusetts      JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Jeffrey, Hon. James F., Philip Solodz Distinguished Visiting 
  Fellow, The Washington Institute for Near East Policy, 
  Washington, DC.................................................     8
    Prepared statement...........................................     9
Johnson, Hon. Ron, U.S. Senator from Wisconsin, opening statement     2
Murphy, Hon. Christopher, U.S. Senator from Connecticut, opening 
  statement......................................................     1
Volker, Hon. Kurt, executive director, McCain Institute for 
  International Leadership at Arizona State University, 
  Washington, DC.................................................    14
    Prepared statement...........................................    15
Wexler, Hon. Robert, president, S. Daniel Abraham Center for 
  Middle East Peace, Washington, DC..............................    11
    Prepared statement...........................................    13
White, Jenny B., professor, Boston University, Boston, MA........     3
    Prepared statement...........................................     5

              Additional Material Submitted for the Record

Prepared Statement of Kilic Bugra Kanat, assistant professor of 
  Political Science, Penn State, Erie and Research Fellow at the 
  SETA Foundation, Washington, DC................................    33

                                 (iii)

  


WHERE IS TURKEY HEADED? GEZI PARK, TAKSIM SQUARE, AND THE FUTURE OF THE 
                             TURKISH MODEL

                              ----------                              


                        WEDNESDAY, JULY 31, 2013

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:08 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Murphy (chairman of the subcommittee) presiding.
    Present: Senators Murphy, Shaheen, Johnson, and Risch.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Good afternoon, everyone. We will have this 
hearing of the Senate Foreign Relations Subcommittee on Europe 
and Eurasian Affairs come to order.
    I would like to welcome everyone to this hearing on the 
topic of United States/Turkish relations in the wake of the 
widespread antigovernment protests in Turkey. I would 
especially like to welcome our witnesses today: The Honorable 
Kurt Volker, The Honorable James Jeffrey, The Honorable Robert 
Wexler, and Dr. Jenny White. Thank you, all four, for being 
here today. We look forward to your testimony.
    For the United States, it does not get much more important 
than the United States/Turkey relationship. Over the last 8 
years, I have traveled to Turkey three times, and I have had 
the chance to watch with awe as Prime Minister Erdogan and the 
AKP Party have led Turkey to the global forefront as an 
economic and political powerhouse in the region; in part, 
thanks to years of engagement with Europe and the United 
States.
    At the same time, the ruling party has used its narrow 
majority to pass controversial legislation and, at times, to 
suppress journalistic and, recently, political freedom. We are 
here today to assess the current state of political affairs in 
Turkey, because the direction that Turkey takes, particularly 
on the question of the quality of its democracy, matters 
greatly to the United States and our interests in Turkey's 
neighborhood.
    Turkey offers inspiration to emerging democracies and 
aspiring democrats, and it is crucial to the United States that 
the light of this example grows brighter instead of dimming.
    For people throughout the region, Turkey's economic 
achievement and the relative freedoms enjoyed by its citizens 
have proven very attractive, enabling Turkey to generate a 
significant amount of influence with their neighbors in the 
Middle East, in the Balkans, in the Caucasus. These countries 
have, for the most part, actively pursued increased engagement 
with Turkey, and they 
hope to benefit from Turkey's role as a relatively wealthy 
regional power broker. The deterioration of the Turkey/Israeli 
relationship threaten one of the most important pillars of 
stability in the Middle East, and we are now hopeful that 
recent rapprochement will deepen ties between these two 
important United States allies.
    The regional dynamic has undoubtedly changed since the 
events of the Arab Spring, and not, frankly, in Turkey's favor. 
Some of the governments with whom Turkey was holding high-level 
meetings and signing trade agreements have fallen, with 
uncertainty taking the place of much more stable relationships 
that Prime Minister Erdogan had worked very hard to solidify. 
The region, and therefore much of Turkey's foreign policy, is 
now in a period of transition.
    And, much like their foreign policy, Turkey's internal 
political situation has now become more fluid, as well. 
Erdogan's moderate Muslim political party brought in many 
people to the political system who had not been part of that 
process before, and he has created a very effective political 
bloc that continues to win elections. But, his government's 
response to the protest movement appeared more in line with the 
response of a defensive dictator than the popular 
democratically elected leader that he actually is. The 
continued arrests and harsh treatment of protesters, and 
lashing 
out at Twitter and Facebook, and the subtle, and, frankly, not 
so subtle, accusations against the Jewish diaspora and Western 
governments--well, it has confounded Turkey's friends as well 
as its critics.
    Turkey faces a challenge now of how to balance their 
secular traditions and religious freedoms, between pursuing 
their interests in the region while also standing for 
democratic Turkish values. How Turkey manages this balancing 
act is of great interest to the United States. And, in the wake 
of recent political developments there, we look forward to 
hearing from our panel as we examine answers to these 
questions.
    I will now recognize Senator Johnson for opening remarks.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chair.
    I think you have really laid out a pretty good summary of 
the situation. Obviously, Turkey is--you know, from its 
position, strategically, as well as location, is incredibly 
important for us and for NATO.
    I certainly want to welcome the witnesses. I want to thank 
them for coming.
    And, really, I would--let us hop into the testimony and 
then get into our questions.
    Senator Murphy. Great.
    Senator Johnson. Thank you.
    Senator Murphy. Let me introduce our guests. I will give 
quick introductions, all at once, and then we will go down the 
line, starting with you, Dr. White, to Mr. Volker.
    So, first, our witness, Jenny White, is a professor of 
anthropology at Boston University and is an expert on Turkey. 
She has authored numerous books and articles on topics ranging 
from political Islam in civil society to ethnic identity and 
gender issues.
    Dr. White, we are very pleased to have you with us today.
    We are also very pleased to have Ambassador James Jeffrey, 
the Philip Solodz Distinguished Visiting Fellow at the 
Washington Institute for Near East Policy. Ambassador Jeffrey 
is a former U.S. Ambassador to Turkey, Deputy National Security 
Advisor, and former U.S. Ambassador to Iraq and Albania, among 
many other positions that he has held during a career in the 
Foreign Service. Earlier in his life, Ambassador Jeffrey was a 
U.S. Army infantry officer, serving in Germany and Vietnam, and 
we thank you for that service, as well.
    Particularly like to welcome my former colleague and 
friend, Robert Wexler, who is the president of the S. Daniel 
Abraham Center for Middle East Peace. Representative Wexler 
served in the House of Representatives for 14 years, where he 
was one of the leaders on the issues related to U.S. policy in 
the Middle East and Europe. As chairman of the House Foreign 
Affairs Subcommittee on Europe, Representative Wexler worked to 
strengthen the transatlantic alliance, as well as our 
relationship with Turkey.
    And it is great to have you here, as well.
    And then, finally, Kurt Volker, who is currently the 
executive director of the McCain Institute for International 
Leadership and a senior advisor to the Atlanta Council and a 
Fellow with the Center for Transatlantic Relations at Johns 
Hopkins School of Advanced International Studies. Ambassador 
Volker served as our U.S. Ambassador to NATO, a Deputy 
Assistant Secretary of State for European and Eurasian Affairs, 
and Acting Senior Director for European Affairs at the National 
Security Council, in addition, as well, to many other positions 
that he has held in a lifetime of work on national security and 
foreign policy issues.
    We welcome you all, and we now invite Dr. White to begin 
your testimony. Your full statements will be submitted for the 
record. We ask you to keep your verbal remarks to about 5 
minutes.

            STATEMENT OF JENNY B. WHITE, PROFESSOR, 
                 BOSTON UNIVERSITY, BOSTON, MA

    Dr. White. Thank you, Senator Murphy.
    I just want to start with making the point that I do not 
think the protests in Turkey are about Islam or about 
secularism. I think that Gezi Park is emblematic of a much 
broader discontent with the ruling party and with issues that 
actually cross religious and secular lines.
    The AKP government, like those before it, has a 
majoritarian understanding of democracy. Democracy means 
whichever party gets the most votes has won the right to impose 
the values of its community on society. This has been the case 
whether the government in power banned the headscarf or banned 
alcohol. And, not coincidentally, this view is widely accepted 
by the Turkish public.
    The AKP sees the public will as a mandate to make 
unilateral decisions without input by citizens, experts, or 
sometimes even Parliament. The judiciary and other key 
institutions are often also blatantly partisan. So, laws 
protecting the environment and requiring consultation have been 
weakened, grandiose development schemes are despoiling the 
environment and erasing entire historic neighborhoods and 
displacing populations. These projects have provoked 
accusations of corruption, that the networks around AKP are 
reaping profit from private development of public land.
    And just as pious Turks once were incensed by restrictions 
by previous secular governments on Islamic expression, Turks 
today are enraged by government intrusions into their private 
lives--what they should wear, what they should drink, what they 
should do with their bodies--and the increasing arrogance of 
AKP supporters on the street demanding that only their norms be 
represented in society--so, confronting men and women kissing 
in public, for instance. Statistics show an increase in 
violence against women, yet the government has shut down 
women's shelters.
    Another issue that crosses pious/secular lines is anger at 
the AKP government for supporting al-Nusra and other jihadis 
who are allowed to enter Turkey and cross into Syria at will. 
Their presence has begun to polarize Turkey, as well, turning 
Sunni Turks against their fellow Alevi citizens. And Prime 
Minister Erdogan has helped, with some of his statements about 
the Alevi, to polarize the issue.
    Furthermore, the Prime Minister is attempting to change the 
constitution to give the Presidency much greater power and that 
would, in essence, remove the checks and balances on that 
power. The press has been bought off--and also, it is clear 
that the Prime Minister, himself, would like to occupy that 
position--the press has been bought off or intimidated by the 
government. Since May 59 journalists have been fired, most for 
covering the protests. Turkey now has more journalists in jail 
than any other country in the world, as well as a large variety 
and number of people behind bars for offenses that, in most 
countries, would be considered freedom-of-speech issues.
    The paradox is that the AKP received more than half the 
vote in the last election. One reason is the party's success in 
improving the country's economy and infrastructure and 
increasing economic and political stability and visibility 
abroad. The AKP revived and largely reinvented Turkey's past as 
a former world empire, which gave it national pride and the 
ability to deal with the world without always looking over its 
shoulder. Throughout the 20th century, Turkey saw itself as a 
potential victim of outside powers aiming to undermine it. 
Turkey's non-Muslim minorities were treated with suspicion as 
potential cat's paws of those outside powers. Kurds and other 
nonconforming groups were banned, and worse. The military had 
no compunction about staging coups to remove elected 
governments that it saw as representing dissonant views.
    When AKP was first elected, in 2002, it attracted voters 
from across the political spectrum who believed that the party 
would blend the country's widespread conservatism with liberal 
changes and improved rights. And indeed, AKP reinvigorated the 
EU accession process, it passed a new penal code that improved 
women's rights. As a result of new EU-aligned laws, the 
government stripped the military of the power to interfere in 
politics. AKP also reached out to non-Muslim minorities and 
Kurds, returning confiscated properties, restoring Kurdish 
place names.
    But, like a rubberband, after several years of liberal 
opening, AKP has snapped back to exhibiting the Turkish status 
quo of strongman autocracy, authoritarianism, patriarchy, and 
intolerance. A recent poll puts AKP support at 44 percent now, 
down 6 percent, but still enough to win local elections.
    So, what is the result of Gezi? The most important outcome 
of the protests is that a sizable new constituency has emerged. 
It is the first time in Turkish history that such masses of 
people have come together without any ideological or party 
organization. They cross class boundaries, they bridge left/
right, conservative/liberal, pious and secular. And, despite 
government claims that there is an international cabal steering 
them, the protesters do not desire to overthrow the government. 
Their central demand is that an elected government must also 
protect the rights of the people who did not vote for them, and 
protect the rights of minorities, although, actually, a lot of 
protesters were AKP voters, as well.
    However, youth and women have little to say in Turkey's 
political life. Taking to the streets was really the only venue 
available to make themselves heard. To change the institutions 
that reproduced this flawed system, they will need to find a 
way to get into the system, perhaps as a new party, although 
that is difficult, given Turkey's restrictive election rules.
    So, this is a pivotal moment in Turkey. I see two possible 
outcomes.
    One is that the Prime Minister makes real concessions. But, 
he seems to be unable to move out of the 20th-century 
definition of statesman as singlehanded ruler of his people to 
statesman as skillful manager of diverse interests and 
lifestyles.
    The second possibility is that he further polarizes 
society. And even though the Turkish system is quite stable, 
there is always an undercurrent of violence, and the fear is 
that he implicitly encourages his followers to enforce his rule 
with street violence. And there have been some incidents of 
that.
    So, the United States has an opportunity right now to put 
its thumb on the scale by acknowledging this new constituency 
and by making the repression more costly.
    Thank you.
    [The prepared statement of Dr. White follows:]

                 Prepared Statement of Dr. Jenny White

    The good news: Turkey's GDP growth and banks are solid; it has the 
16th-largest economy in the world. As a result of the European Union 
accession process, Turkey has changed hundreds of its laws and 
institutions to align them with Europe. Parliament is writing a new 
constitution to replace the one written under military oversight after 
the 1980 coup, and many hope it will enshrine liberal individual 
rights. The government has initiated a peace deal with the PKK to end 
decades of war.
    So why have tens of thousands of Turks across the country risen up 
and taken to the streets? The protest was ignited by the uprooting of 
sycamore trees in Gezi Park, the only remaining green space in 
Istanbul's central Taksim area, to make room for yet another mall. 
Polls showed that the majority of protesters that flooded the streets 
in dozens of cities across the country were initially motivated by the 
brutality of the police who shot teargas canisters and rubber bullets 
directly at peaceful protesters, causing severe injuries and deaths. 
Hundreds of protesters have been arrested and will likely be arraigned 
under draconian terrorism statutes. This was not the first incidence of 
police brutality, but the country had come to a tipping point.
    The protest is not about Islam versus secularism; the issues cross 
those lines. Gezi Park has become emblematic of a much larger malaise 
and discontent with the increasing autocracy and authoritarianism of 
the ruling party, and its disregard for the wishes of the population on 
many issues. The AKP government, like those before it, has a 
majoritarian understanding of democracy that polls show is shared by 
many citizens--that democracy means that whichever party gets the most 
votes has won the right to impose the values of its community on 
society. This has been the case whether the government in power banned 
the headscarf or banned alcohol. The AKP sees ``the public will'' as a 
mandate to make unilateral decisions without input by citizens, 
experts, or sometimes even Parliament.
    Laws protecting the environment and requiring consultation have 
been weakened. Grandiose urban development schemes are despoiling the 
environment and erasing entire historic neighborhoods, often ethnically 
and religiously mixed, replacing them with middle-class housing for the 
Muslim bourgeoisie. Government schemes include building the world's 
largest mosque and airport, a third Bosphorus bridge, and a canal 
between the Black Sea and the Sea of Marmara that will dissect the 
European half of Istanbul. Such construction projects have provoked 
accusations of corruption, that the networks around AKP are reaping 
profit from private development of public land.
    Just as pious Turks once were incensed by restrictions by previous 
secular governments on Islamic expression and wearing of headscarves in 
certain public places, Turks today are enraged by government intrusions 
into their private lives, what they should wear, what they should drink 
(restrictions on alcohol), and what they should do with their bodies 
(for instance, the government urging that women should have three 
children and stay at home, attempts to restrict abortions and Caesarian 
section) and the increasing arrogance of AKP supporters in demanding 
that only their norms be represented in society (confronting men and 
women kissing in public or strolling in a park together). Statistics 
show an increase in violence against women, which is higher in Turkey 
than in the EU or the U.S., yet the government has shut down women's 
shelters and shown little interest in dealing with the problem. These 
are issues that concern both pious and secular citizens.
    Another issue that crosses pious/secular lines is anger at the AKP 
government for supporting Qaeda-linked and other radical jihadis who 
are allowed to enter Turkey and cross into Syria at will. Their 
presence has begun to polarize Turkey as well, turning Sunni Turks 
against their fellow Alevi citizens, although Alevis differ from 
Syria's Alawites and have nothing to do with the Syrian conflict. Even 
Turkish Sunnis on the border are afraid of the armed strangers in their 
midst.
    Furthermore, Prime Minister Erdogan is attempting to change the 
constitution to make Turkey's parliamentary system into one that gives 
the President much greater powers and that would, in essence, remove 
the checks and balances on that power. And it is clear that he himself, 
like Putin in Russia, would like to occupy that position.
    The press, led by media barons bought off or intimidated by the 
government, has not done a good job of reporting on these issues. Since 
May, 59 journalists have been fired, mostly for covering the protests. 
Turkey now has more journalists in jail than any country in the world. 
Academics, authors, publishers, trade union members, speakers at 
Kurdish events, grandmothers and children attending protests, students 
demonstrating about school fees, and cartoonists are behind bars for 
``offenses'' that in most countries would be considered freedom of 
speech issues.
    The paradox is that the AKP received more than half the vote in the 
last election. One reason is the party's spectacular success in 
improving the country's economy and infrastructure (trains, buses, 
roads, and so on) and increasing economic and political visibility 
abroad. The AKP government revived (and largely reinvented) Turkey's 
past as a former world empire, the Ottoman empire, which gave it 
national pride and the ability to deal with the world politically and 
economically without always looking over its shoulder. Throughout the 
20th century, Turkey saw itself as a potential victim of outside powers 
aiming to undermine it, a repeat of WWI when Europeans dismantled the 
Ottoman Empire. Turkey's non-Muslim minorities were treated with 
suspicion as potential cat's paws of those outside powers. The culture, 
language, and presence of Kurds and other nonconforming groups and 
individuals were banned and worse. The military saw itself as a 
guarantor of a culturally and politically unitary Turkey and had no 
compunction about staging coups to remove elected governments that it 
saw as representing dissonant views.
    After the AKP was first elected in 2002, it attracted voters from 
across the political spectrum who believed that the party would blend 
the country's widespread conservatism with liberal changes and improved 
rights, especially freedom of religious expression (headscarves had 
been banned from universities) and freedom of speech. Indeed, AKP 
initially reinvigorated the EU accession process and passed a new penal 
code long desired by pious and secular feminists that improved women's 
rights. As a result of new EU-aligned laws, the government stripped the 
military of the power to interfere in politics. AKP also reached out to 
non-Muslim minorities and Kurds, returning some confiscated properties 
and restoring changed Kurdish place names.
    But like a rubber band, after several years of liberal opening, AKP 
has snapped back to exhibiting what has long been the Turkish status 
quo of strongman autocracy, authoritarianism, patriarchy, and 
intolerance. All of these are characteristics that polls show are 
reflected by the population at large and are characteristic of the 
still highly valued traditional family structure. PM Erdogan's 
projected stance as the authoritarian father punishing disobedient 
citizen children and protecting the national family against outsiders 
is familiar and laudable to many Turks.
    What next? Turkey's Government has been freely elected and no one, 
not even the protesters, disputes that. There is no desire to overturn 
the system or even kick out the elected AKP. There is dissatisfaction 
that PM Erdogan is not acting democratically and people would like to 
see his party remove him as Prime Minister (although realistically no 
one believes this would happen, even though he has to some extent 
become a liability to his party). A recent poll puts AKP support at 44 
percent now (down 6 percent), still enough to win local elections next 
March.
    The most important outcome of Gezi is that a sizable new 
constituency has emerged, as yet with no name, no platform, no leader. 
It is the first time in Turkish history that such masses of people--
many with contradictory or competing interests--have come together 
without any ideological or party organization. They cross class 
boundaries and bridge left/right, conservative/liberal, pious/secular. 
Despite government claims that there is an international cabal steering 
them, the protesters are out there to air a wide variety of complaints, 
but central is their demand that an elected government must also 
protect the rights of the people who did NOT vote for them, the rights 
of minorities, the rights of people whose ideas or lifestyle the 
electoral winners might not agree with.
    However, youth (and women) have little say in Turkey's political 
life. Taking to the streets was really the only venue available to make 
themselves heard. To change the institutions that reproduce this flawed 
system, they will need to find a way to get into the system, perhaps as 
a new party, although that is difficult given Turkey's restrictive 
election rules.
    Nevertheless, the protests have reframed debates in Turkey away 
from Islamism/Kemalism as an explanatory framework and instead put the 
focus on shared rights and tolerance of difference. Pushback in the 
street, amplified by the PM's belief that the protests mean to topple 
him, could lead to a more cautious approach to development (although 
the evidence is against this as uprooting of trees and construction 
continue apace). The PM's aggressive recent response to the Kurds might 
make them unwilling partners in rewriting the constitution for a more 
powerful Presidency, although their interest in signing the peace deal 
might win out.
    PM Erdogan's approval of the brutality against peaceful protesters 
has galvanized a not insignificant part of the population against him 
and has dislodged his halo in international eyes. It is a steep fall. 
After his recent success in arranging a peace deal with the PKK after 
decades of fighting, people had been speaking about him as perhaps the 
greatest Turkish statesman since Ataturk. But he seems unable to move 
out of the 20th-century definition of statesman as single-handed ruler 
of his people to statesman as skillful manager of diverse interests and 
lifestyles. His party and some of his followers are uncomfortable with 
the organized chaos that is social media and they are unable to 
envision a society composed of freely interacting individuals. They are 
always looking for the leader that defines them, the person or 
organization or country to blame.
    U.S. Response: President Obama's 2009 speech to the Muslim world 
promised moral leadership, but the United States as well seems to be 
captured by 20th-century strategies that define conflicts in crude 
terms of Islam versus secularism. We turn a blind eye to human rights 
violations in return for stability and security, while abandoning the 
21st-century liberal and moderate constituencies that most resemble our 
own ideals (but that would include moderate Islamists as well). The 
youth of Tahrir Square toppled Mubarak and were then pushed aside. The 
Gezi constituency should at least be recognized. Appeasement is a 
slippery slope. The U.S. said nothing about the Turkish Government's 
deadly repression of peaceful protests, and now has said nothing about 
live bullets in Cairo. What is needed is an acupuncture-like approach, 
knowing exactly where to apply pressure to exact change (for instance, 
liberalizing Turkish election laws), rather than wholesale support of 
problematic regimes or, worse, silence.

    Senator Murphy. Ambassador Jeffrey.

STATEMENT OF HON. JAMES F. JEFFREY, PHILIP SOLODZ DISTINGUISHED 
VISITING FELLOW, THE WASHINGTON INSTITUTE FOR NEAR EAST POLICY, 
                         WASHINGTON, DC

    Ambassador Jeffrey. Mr. Chairman, thank you very much for 
the invitation today. Senator Johnson. It is a delight to be 
here.
    First of all, in terms of the situation, I would associate 
myself with what Dr. White has just said, and will make just 
two points on the internal situation before taking a look at 
what the United States can do and what this means for us.
    First of all, I do not think that the AKP rule is in 
serious danger at this time. I think that it is a very powerful 
and very effective political force in the country. I am less 
certain, however, that the ambitious plans to reform the 
constitution into a more Presidential system, given what we 
have seen and what Dr. White just described as a major fissure 
in the society, will be easily carried out. So, that is 
something to look at.
    The second thing is to pick up on her point about 
majoritarian government. The problem that you have with a 
government where whoever the majority is rules--and this goes 
back to the very roots of our own history, with Hamilton and 
Jefferson on opposite sides--if you ignore the minority, if the 
minority feels that they are not part of the society, that they 
are not at least listened to and that some of their key 
interests are not protected, you can still pass laws, and you 
can still sort of rule, but you are going to be in an unstable 
situation. That is not good for a Turkey, whose economy is very 
modern and integrated into the international market and 
financial systems of the world. And this is something also to 
watch.
    Now, in terms of the impact on the United States, Turkey 
cannot, I think, any more than, let us say, China in East Asia, 
be instrumentalized, in a formal sense, as a model for other 
countries to follow. But, as you pointed out, Mr. Chairman, 
Turkey has demonstrated that a Muslim-majority country 
anchored, in part, in the broader Middle East could adopt 
Western political, economic, and security systems. And this 
does inspire other populations in the region. It does have a 
role throughout the Middle East.
    More importantly, a Turkey confident of its internal 
situation and economic progress is more likely to play an 
active and positive role in the region, in close coordination 
with the United States. Although such United States-Turkish 
coordination has been particularly close in the Obama 
administration, continued unrest will make this coordination 
more difficult at a time when regional stability makes exactly 
our need for such coordination with Turkey particularly 
pressing.
    But here, another caution. Many analysts extend the model 
idea to project a Turkey that is little more than a faithful 
follower of United States values and specific interests. Thus, 
when Turkey inevitably deviates in some way from our, 
``expectations,'' incomprehension, indignation, and even anger 
arise on our part. This all flows, I believe, from a 
misunderstanding of Turkey's role in the world and in relations 
with the United States.
    Turkey is a independent actor in a way that many of our 
other allies are not. If you look at Western Europe, the other 
NATO states, Japan, Korea--in those countries, there is a 
fundamental, almost eternal, belief that goes beyond 
governments--all governments--deep into the population, that a 
security relationship with us and wedding itself to Western 
values, as we see them, is inherently a final decision taken by 
the society. Turkey is more of an independent actor. I would 
compare it to India and Brazil, with several specific 
characteristics.
    First of all, as every poll I have seen shows, America is 
not popular in Turkey among the population at large. 
Governments are able to deal with that, and it does not have a 
major impact on our daily policies, but it is something we have 
to keep in mind.
    Secondly, however, Turkey is a major consumer of Western, 
NATO, and American security. It is a security partner. It has 
grown used to working closely with us throughout the world in 
areas such as Afghanistan and often in the Middle East. The 
NATO radar in Turkey, for example, is one of many signs that 
the Turks generally will go along with us. But, this is on a 
case-by-case basis, and we need to keep that in mind.
    The Turks have their own mind, particularly in what they 
would call their ``near abroad,'' and they will expect the 
United States, in many cases, to follow them rather than the 
Turks following us.
    So, what, in the end, should we do about this situation, 
which is quite significant and serious, as you have said? First 
of all, the United States has been restrained, all in all, in 
our public statements. I think that is wise, because, first of 
all, if we are faithful to the concept of democracy, we have to 
let the Turkish people decide how they want to be governed, as 
long as they are a democratic system. And they are one.
    Secondly, public condemnation of Turkey and Prime Minister 
Erdogan would be strongly counterproductive, as I have seen 
repeatedly in past crises, at least on the part of the United 
States administration.
    Our goal, thus, should be to do whatever is in our power, 
reaching out to all who will listen, privately--to some degree, 
publicly--to ensure that an honest debate takes place in Turkey 
to resolve the serious splits that we have just heard about in 
detail in the society in a democratic, peaceful manner. 
Resolution of these societal splits, again, is essential to 
work effectively with Turkey on the huge range of problems we 
face together in the broader Middle East.
    These problems, ranging from Syria to Iran, are the most 
serious we have encountered in three decades, and regional 
stability, the survival of regimes, the security of the oil 
trade, and even the overall structure of United States-led 
international security are all at risk. We need Turkey by our 
side, and Turkey needs us. But, from America to Anatolia, we 
all need a stable, democratic Turkey.
    Thank you, sir.
    [The prepared statement of Ambassador Jeffrey follows:]

           Prepared Statement of Ambassador James F. Jeffrey

    When Barack Obama made his 2009 trip to Turkey, his first bilateral 
visit as President, he did not single out Turkey as a model per se. 
Rather, he made the point that Turkey ``is not where East and West 
divide--this is where they come together.'' Along with this, he 
stressed America's willingness to work with Turkey and, above all, paid 
homage to Turkey's status as a successful democracy. Today, many inside 
and outside Turkey question whether it will remain the same successful 
democracy, open economy, and reliable security partner we have seen in 
recent decades. There is cause for concern, but there is also time for 
the Turks, and it is in the first instance their job to sort out the 
issues behind the Gezi Park demonstrations and tailor their political 
process as they see fit.
    The demonstrations that broke out in Gezi Park and Taksim Square in 
Istanbul in late May represent the biggest challenge to Prime Minister 
Erdogan's AK Party rule in the 11 years the party has been in power. 
The government has survived the turmoil and is now on the offensive 
with a campaign of rhetorical abuse--and judicial action--against those 
participating in or supporting the demonstrations. I see no risk of the 
government falling over its handling of this whole issue. But the 
government, particularly Erdogan, will now face serious opposition if 
he attempts to put in place his ambitious program to consolidate 
Turkey's Presidential system through constitutional change and to have 
himself elected the first President under this new system. While that 
outcome is still possible, such an ambitious reordering of the Turkish 
political landscape, which would be the most momentous since Ataturk 
and Inonu, looks less and less certain given the supermajorities 
Erdogan is looking for in the 2014 Presidential elections and 
constitutional referendum.
    Turkey, and Erdogan--were he to find a way to reverse his 
commitment not to run for another term as Prime Minister--can survive 
without problem within the current constitutional political framework. 
But what was shown by the demonstrations and the government's reaction 
to them is that Turkey is increasingly split into two quite different 
political groupings and that the government itself is contributing to 
further polarization of the society. This is the situation of greatest 
concern to those of us who follow Turkey closely. What in particular 
has troubled observers, including me, and the U.S. Government, is the 
attitude of some, but not all, of the government leaders. These 
leaders, including the Prime Minister, have generally demonized all of 
the demonstrators and are increasingly criminalizing peaceful protest 
and even free speech if supportive of the demonstrators. This calls 
into question the government's commitment to free speech and assembly, 
to the principle of proportionality, and, at bottom, to the democratic 
principle that minorities cannot simply be ignored. This 
``majoritarian'' approach to democratic rule, which we have alas seen 
elsewhere in the region, ignores a key component of democracy: that it 
cannot encompass just the rule of the majority, but must mobilize at 
least the willingness of the minority to accept that rule and to feel 
itself part of the larger political society. That feeling, and 
willingness, are in play now, and as long as that is so, Turkey's 
stability and chances for further political, economic, and social 
progress are at risk.

                      IMPACT ON THE UNITED STATES

    How does this affect U.S. interests? Turkey cannot, any more than 
the United States globally, or China in East Asia, be instrumentalized 
as a ``model'' for other societies to follow. With few unique 
exceptions--such as the United States immediately after World War II--
international relations usually does not work in so direct a fashion. 
Nevertheless, Turkey has demonstrated that a Muslim-majority country 
anchored in part in the broader Middle East could adopt Western 
political, economic, and security systems, prosper under all of them, 
and become a partner to the United States and European Union. Turkey's 
relative success or failure in this regard does have some effect on the 
populations of other countries in the region.
    But, more directly, a Turkey confident of its internal situation 
and economic progress is more likely to play an active and positive 
role in the region, to the extent feasible in close coordination with 
the United States. Although such U.S.-Turkish coordination has been 
particularly close in the Obama administration, continued social unrest 
and resulting questions about the nature of Turkish democracy will make 
this coordination more difficult. A distracted Turkish Government could 
well ally itself further with anti-Western elements that support its 
hardline policies. The United States would then be obliged to speak out 
on violations of democratic principles, rendering cooperation and 
coordination even more problematic. Nonetheless, assuming that Turkey 
remains reasonably stable under a democratic system, continued 
partnership will be possible. Under the chaotic circumstances that 
reign in the region, this partnership will, in fact, remain essential 
in dealing with Syria, Iran, Iraq, and Israel's role in the region.
    But here, another caution. Many analysts not only overstress the 
``model'' concept but also project a Turkey that is little more than a 
faithful follower of Western, especially U.S., values and specific 
interests. Thus, when Turkey inevitably deviates in some way from our 
``expectations,'' incomprehension, indignation, and even anger arise on 
our part. This all flows from a misunderstanding of Turkey's role in 
the world, and with us. In my view, Turkey is not in the same category 
as the EU states, Japan, South Korea, and a number of other close 
allies. In these countries, eternal bonds with, and security 
subordination to, the United States are political givens for the 
leaderships and populations. But this is not the case with Turkey: it 
is an independent international operator, similar to India or Brazil, 
but with extraordinarily high popular skepticism of the United States 
and the EU. Likewise, it generally shares the same political and 
economic values as the West and is integrated into various Western 
institutions. Unlike India or Brazil, however, Turkey has a 
longstanding security relationship with us, shared security interests, 
and strong institutional security arrangements--from NATO membership to 
massive U.S. arms purchases--that are central to its security and its 
regional role. This produces a strong tendency to consider and if 
possible go along with U.S. initiatives, as seen in Afghanistan. But 
Turkey will act independently, particularly in its ``near abroad,'' and 
expect us to back it, rather than Turkey automatically backing us. This 
was true before the Erdogan government, and remains true today. In this 
regard, we need to remember that with its huge burden of Syrian 
refugees and the actions of the PKK-offshoot PYD along the Turkish 
border,Turkey's regional security is at stake in a way that ours is 
not,

                           WHAT SHOULD WE DO?

    The United States, though speaking out repeatedly about Turkey's 
actions and statements being at variance from our view of democratic 
norms, has nonetheless been restrained in its reaction. That is a wise 
decision. First, if we are faithful to the concept of democracy, then 
we recognize that only the people of a given state, not outsiders, have 
the right to pass judgment on the government and the demonstrators. 
Second, publicly condemnation of Turkey and Erdogan would be strongly 
counterproductive. It would not push the Turkish Government to tailor 
its response, but, as I have seen repeatedly in the past, would make us 
the central problem, lessening any chance of a more compromising 
government position.
    Our goal thus should be to do whatever is in our power, mainly 
privately and without antagonizing, to ensure that a complete and 
honest debate takes place in Turkey and to encourage the Turks to 
resolve the serious splits in their society in a democratic, peaceful 
manner. This is not only an end in itself for a more successful, more 
stable Turkey, but is also essential if we want to continue to work 
effectively with Turkey on the huge range of problems we face together 
in the broader Middle East and more widely in Eurasia. These problems 
are the most serious we have encountered in the Middle East in three 
decades, and regional stability, the survival of regimes, the security 
of the oil trade, and even the overall structure of U.S.-led 
international security are all at risk. We need Turkey by our side, and 
Turkey needs us. But from America to Anatolia, we all need a stable, 
democratic Turkey.

    Senator Murphy. Congressman Wexler.

 STATEMENT OF HON. ROBERT WEXLER, PRESIDENT, S. DANIEL ABRAHAM 
          CENTER FOR MIDDLE EAST PEACE, WASHINGTON, DC

    Mr. Wexler. Thank you, Chairman Murphy, Ranking Member 
Johnson. It is a special honor for me to testify with two of 
our Nation's finest diplomats, in every which way, and an 
esteemed professor and academic, as well.
    In 2001, I joined with Congresswoman Kay Granger and 
Congressman Ed Whitfield to establish the Congressional Caucus 
on Turkey, because we recognized the need for a deeper 
strategic alliance with Turkey. More than a decade later, our--
meaning America--our increased engagement with Turkey has 
proved indispensable in advancing American interests across the 
globe.
    While the recent protests in Turkey reflect a schism within 
Turkish society, no doubt, there is no reasonable comparison 
between these protests and the Arab Spring. Prime Minister 
Erdogan has won three fair-and-free elections in the past 
decade, each by increasing margins. The protesters' frustration 
with the Prime Minister's administration, both in terms of 
style and substance, bears no relationship to the uprisings 
against authoritarian dictators elsewhere in the region. That 
there was never even a possibility of the military intervening 
is a testament to just how far Turkey's democracy has come.
    Still, the United States must encourage Prime Minister 
Erdogan to choose the wisest path. Rather than restricting 
freedom of the press and attempting to sideline its critics, 
the government should point to its impressive record. In a 
decade, Prime Minister Erdogan's administration has 
fundamentally strengthened Turkish democracy. Perhaps most 
significantly, Prime Minister Erdogan established civilian 
authority over a military that previously exerted its influence 
in all facets of society.
    Turkey's recent economic progress is nothing short of 
remarkable. Last month, a World Bank report described Turkey's 
development over the past decade as one of the success stories 
of the global economy. The Prime Minister's ambition for Turkey 
to become one of the world's 10-largest economies by 2023 is a 
laudable goal. Per capita income has tripled, and poverty has 
decreased from 28 percent in 2003 to 18 percent in 2013. And in 
May, Turkey finally paid off its last loan to the IMF, which 
prevented a near catastrophe, just a decade ago.
    Additionally, Prime Minister Erdogan has taken dramatic 
steps toward enlarging Turkey's pluralistic democracy. After 
years of bloodshed, the Prime Minister has courageously 
signaled his intent to engage in a peace process with Turkey's 
Kurdish community in an open and democratic manner.
    Considering these accomplishments, the Prime Minister 
should communicate confidence in his vision for the country. 
But, the government's recent statements casting the protests in 
terms of international conspiracies, interest-rate lobbies, and 
unfortunate anti-Semitic references do not reflect a Turkey 
commensurate with its substantial achievements and aspirations 
of joining the European Union. Rather than attempting to 
delegitimize voices of dissent, the leadership should embrace 
responsible calls for reform and take pride in the depth of 
Turkey's personal liberties and democratic institutions.
    In dealing with Turkey, I would respectfully suggest that 
it is critical to appreciate that the country is rife with 
conflicting truths. Attempts to label segments of society will 
inevitably lead to misperceptions of the political landscape. A 
so-called Islamist in Turkey is markedly different from an 
Islamist elsewhere in the region. In my own experience, members 
of the Prime Minister's Justice and Development Party are often 
more pro-American, market-driven, and pragmatic than the so-
called secular parties. Even during the recent diplomatic 
crisis between Turkey and Israel, for example, the commercial 
ties between the countries increased.
    Senators Murphy and Johnson, thank you for holding this 
hearing. Recent developments in the Middle East demand that the 
United States work with Turkey toward a more stable, peaceful, 
and democratic region. In Syria, Iran, Egypt, Afghanistan, and 
Iraq, our national interests are better served through close 
cooperation with Turkey. And as we restart negotiations between 
Israel and the Palestinians, it is essential that Turkey and 
Israel restore normal relations so that Turkey can effectively 
engage both sides and fully participate in the diplomatic and 
economic initiatives launched by Secretary Kerry.
    Prime Minister Erdogan is poised to be the most 
consequential Turkish leader since Ataturk. If he can, in fact, 
harness the protests to broaden Turkey's democratic tent, he 
will ensure Turkey's rise as a global power and fortify 
Turkey's alliance with both the United States and Europe.
    Thank you.
    [The prepared statement of Mr. Wexler follows:]

                Prepared Statement of Hon. Robert Wexler

    Good afternoon Chairman Murphy, Ranking Member Johnson, and members 
of the committee. It is an honor to testify at this critical moment in 
Turkish-American relations.
    In 2001, I joined with Congresswoman Kay Granger and Congressman Ed 
Whitfield to establish the Congressional Caucus on Turkey because we 
recognized the need for a deeper strategic alliance with Turkey. More 
than a decade later, our increased engagement with Turkey has proved 
indispensible in advancing American interests across the globe.
    While the recent protests in Turkey reflect a schism within Turkish 
society, there is no reasonable comparison between these protests and 
the Arab Spring. Prime Minister Erdogan has won three fair and free 
elections in the past decade, each by increasing margins. The 
protesters' frustration with the Prime Minister's administration, both 
in terms of style and substance, bears no relation to the uprisings 
against authoritarian dictators elsewhere in the region. That there was 
never even a possibility of the military intervening is a testament to 
just how far Turkey's democracy has come.
    Still, the United States must encourage Prime Minister Erdogan to 
choose the wisest path. Rather than restricting the freedom of the 
press and attempting to sideline its critics, the government should 
point to its impressive record. In a decade, Prime Minister Erdogan's 
administration has fundamentally strengthened Turkish democracy. 
Perhaps most significantly, Prime Minister Erdogan established civilian 
authority over a military that previously exerted its influence in all 
facets of society.
    Turkey's recent economic progress is remarkable--last month, a 
World Bank report described Turkey's development over the past decade 
as ``one of the success stories of the global economy.'' The Prime 
Minister's ambition for Turkey to become one of the world's 10 largest 
economies by 2023 is a laudable goal. Per capita income has tripled and 
poverty has decreased from 28 percent in 2003 to 18 percent in 2013. 
And in May, Turkey finally paid off its last loan to the IMF, which 
prevented a near-catastrophe a decade ago.
    Additionally, Prime Minister Erdogan has taken dramatic steps 
toward enlarging Turkey's pluralistic democracy. After years of 
bloodshed, the Prime Minister has courageously signaled his intent to 
engage in a peace process with Turkey's Kurdish community in an open 
and democratic manner.
    Considering these accomplishments, the Prime Minister should 
communicate confidence in his vision for the country. But the 
government's recent statements, casting the protests in terms of 
international conspiracies, ``interest rate lobbies'' and unfortunate 
anti-Semitic references do not reflect a Turkey commensurate with its 
substantial achievements and aspirations of joining the European Union. 
Rather than attempting to delegitimize voices of dissent, the 
leadership should embrace responsible calls for reform and take pride 
in the depth of Turkey's personal liberties and democratic 
institutions.
    In dealing with Turkey, it is critical to appreciate that the 
country is rife with conflicting truths. Attempts to label segments of 
society will inevitably lead to misperceptions of the political 
landscape. A so-called Islamist in Turkey is markedly different from an 
Islamist elsewhere in the region. In my own experience, members of the 
Prime Minister's Justice and Development Party are often more pro-
American, market-driven and international than the so-called secular 
parties. Even during the recent diplomatic crisis between Turkey and 
Israel, the commercial ties between the countries increased.
    Senators Murphy and Johnson, thank you for holding this hearing. 
Recent developments in the Middle East demand that the United States 
work with Turkey toward a more stable, peaceful, and democratic region. 
In Syria, Iran, Egypt, Afghanistan, and Iraq, our national interests 
are better served through close cooperation with Turkey. And, as we 
restart direct negotiations between Israel and the Palestinians, it is 
essential that Turkey and Israel restore normal relations so that 
Turkey can effectively engage both sides.
    Prime Minister Erdogan holds the potential to be the most 
consequential Turkish leader since Ataturk. If he can, in fact, harness 
the protests to broaden Turkey's democratic tent, he will fortify 
Turkey's standing with both the United States and Europe, and 
permanently cement his legacy.

    Senator Murphy. Ambassador Volker.

   STATEMENT OF HON. KURT VOLKER, EXECUTIVE DIRECTOR, McCAIN 
    INSTITUTE FOR INTERNATIONAL LEADERSHIP AT ARIZONA STATE 
                   UNIVERSITY, WASHINGTON, DC

    Ambassador Volker. Thank you, Mr. Chairman and Senator 
Johnson, for the opportunity to appear here. It is really an 
honor and it is also, I should say, an honor to be here next to 
the former chairman of the House Subcommittee on Europe, who is 
as much expert on Turkey as anybody, along with our other 
distinguished panelists.
    When I was at NATO, the joke, when you were waiting for 28 
nations to finish speaking in turn, was that, ``Well, 
everything's been said, but not everybody has said it.'' So, I 
could repeat a lot of what has been said here, and I will try 
to avoid that. Let me, instead, try to string together three 
aspects that I think came out.
    There is the strategic environment around Turkey, which is 
critically important, including the war in Syria. There is 
Turkey's role in addressing these things. And there--including 
partnership with the United States, an alliance with the United 
States--and there are the domestic developments inside Turkey. 
And they have an interplay with one another that I think is 
tremendously important.
    First, Turkey's own strategic importance. Turkey has the 
ability to enfranchise Islam within a vibrant democracy. In so 
doing, it has the ability to prosper economically and 
politically for its own people and as a inspiration to others 
in the region. And, given its geographic situation, it has the 
potential to play a meaningful and positive role in addressing 
many of these crises in the neighboring area.
    And, of course, the United States is committed to the 
defense of Turkey as a NATO ally, and Turkey has contributed to 
our shared efforts in the Balkans, Afghanistan, and elsewhere.
    So, secondly, Turkey is, therefore, enormously potentially 
important for the United States. I emphasize ``potentially,'' 
because that depends upon us knowing what we are doing. What do 
we want to achieve in Syria, in the escalation of violence in 
Iraq, in the Caucasus, in Central Asia? When we know what--with 
Egypt--when we know what we are trying to do, we will find that 
Turkey is an invaluable partner in helping us get there. But, 
at the moment, I think our strategic partnership is really 
underdeveloped with Turkey. And, as a result, our influence on 
events in Turkey is somewhat diminished.
    The third is something that came up in all of the 
testimony, is that, recently, there has been a degradation in 
the quality of the democratic or liberal performance of the 
Erdogan government. We have seen two things. We have seen an 
insertion of Islam into public life in ways that are 
distressing to large segments of a more secular population. And 
we have seen authoritarian tendencies in response to opposition 
and protests inside the country. These are things that matter a 
lot. They have echos in the region. The whole reason the 
conversation started about Turkey as a potential model or an 
inspiration is because the AK Party was being successful in 
carving out a path between military dictatorship and Islamist 
dictatorship. As a party with Islamic roots, but functioning 
well and governing well in a democratic society, they were 
trailblazing. For that model to be reversed in any way would 
devastating for Turkey, but also send terrible signals 
throughout the region. That really is part of the heart of 
where the Syria conflict began and what we are seeing going on 
now in Egypt.
    I think, therefore, there are two pointers for U.S. policy 
in this, and that you have heard them from other panelists, as 
well.
    The first one is that U.S. engagement is critical, first 
off, with respect to the crises in the region. The domestic 
development inside Turkey are not yet a crisis, but the 
conflict in Syria, the escalation of violence in Iraq, the risk 
of that spilling over into Lebanon, the risk of destabilizing 
Jordan, the great uncertainty now which we see with Egypt, and 
our allies with Israel potentially being dramatically affected 
over these are all critically important. And our ability to 
tackle these depends upon working the strategy for dealing 
those together with Turkey. I think we have a lot more 
investment to do in that.
    The second one is connected, which is the domestic 
developments inside Turkey. I think that--and I take the point 
about not condemning Prime Minister Erdogan. We should not 
condemn him, but we should speak up firmly on behalf of the 
democratic values that we believe in and that most of Turkish 
society wishes to see fully realized in their own society. I do 
not think it is a choice between strategic engagement with 
Turkey and discussion of democracy and values that we share. 
Instead, by engaging strategically, it gives us the 
credibility, the skin in the game, also to be able to speak up 
on behalf of democratic values, not in a form of condemning or 
supporting one side against the other, but trying to uphold 
those values so that Turkey emerges stable, prosperous, secure, 
and a partner for us in dealing with some very difficult 
challenges in the region.
    Thank you.
    [The prepared statement of Ambassador Volker follows:]

                 Prepared Statement of Hon. Kurt Volker

    Thank you Mr. Chairman, Senator Johnson, and all the distinguished 
Senators here today, for the opportunity to testify about Turkey--where 
it is headed--as well as United States-Turkish relations and the 
situation in the wider Middle East around Turkey. It is an honor to be 
here.
    Let me start with three basic observations, and then I will expand 
on some specific issues in more depth.
    First, Turkey is of enormous strategic importance, for several 
reasons. Turkey has the ability to enfranchise Islam within a vibrant 
democratic system. In so doing, it has the ability to prosper 
economically and politically, delivering for its own people and serving 
as an inspiration to others. It is a major emerging economy. Given its 
critical geographic position at the intersection of Europe, Asia, and 
the Middle East, it has the potential to play a meaningful and positive 
role in addressing issues in its neighborhood, including Syria, Iraq, 
Iran, the Caucasus, and more. And, of course, the United States is 
committed to the defense of Turkey as a NATO ally, and Turkey has 
contributed to shared efforts in the Balkans, Afghanistan, and 
elsewhere.
    Second, Turkey is therefore a potentially invaluable strategic 
partner for the United States in addressing regional challenges. 
Unfortunately, this partnership has been largely unrealized, not least 
of all because the United States does not at the moment have clear 
goals and strategies for what it would like to achieve--in Iraq, in 
Syria, in the Caucasus, in Central Asia, and in the Eastern 
Mediterranean and North Africa generally. If we knew what we wanted to 
achieve and were prepared to invest serious effort in getting it, 
Turkey could be an essential ally in doing so. As it stands, Turkey 
feels that the U.S. is not sufficiently engaged on key issues, such as 
Syria, which are of critical interest to Turkey.
    Third, Turkey is facing serious challenges within its democracy--
challenges that are deeply troubling. If they are not addressed 
squarely through Turkey's own democratic institutions, all of the 
positive potential I have just described could become a negative, 
adding fuel to the fire of a Middle East region already in crisis, and 
further stressing an already stressed Europe.
    Taken together, these challenges are related to a lingering 
question of whether Turkey still sees itself as a member of the 
transatlantic community with a foot in the broader Middle East, or a 
``post-Ottoman,'' non-Atlanticist, power. From a U.S. perspective, the 
former is far more desirable.
    All this argues for a much more proactive United States policy with 
respect to Turkey:

  <bullet> On the one hand, to work with Turkey strategically to 
        address challenges in the region, which are of great concern to 
        Turkey and should be of great concern to the United States as 
        well; and
  <bullet> On the other hand, to be clear, candid, and public about our 
        deep commitment to democratic values and institutions, and our 
        concern that Turkey should reverse its drift away from these 
        values, both for its own stability, as well as for its ability 
        to play a constructive role in the region.

    Some might say that these policies are in conflict--How can one 
work with Turkey and offer criticism at the same time? I believe the 
opposite is true. Our ability to be taken seriously, and for our 
concerns to be viewed as constructive support from a friend and ally, 
depends on the degree to which we indeed treat Turkey as a strategic 
ally, demonstrate our own reliability, and tackle challenges together.
                   domestic successes and challenges
    So ``Where is Turkey Headed?'' Let me start with some context.
    After decades of a strong military role in politics, enshrined in 
the law governing the military and enforced through a number of coups, 
democratically elected civilian rule has become embedded.
    In the early 2000s, through its efforts to escape from financial 
crisis and integrate with the European Union (though that is now 
largely a side issue), Turkey introduced a series of key reforms and 
established robust trading relationships that have led to vastly 
improved national prosperity and a growing global economic role.
    Through its role in governing Turkey successfully for many years, 
the Justice and Development Party (the AK Party) had demonstrated the 
potential for a party with Islamic roots to exercise power responsibly 
and tolerantly within a democratic system.
    This growing Turkish strength has helped give Turkey the confidence 
to address a number of regional issues. For example, despite the 
history of PKK terrorism, the current Turkish Government has said it is 
open to a peace process for the PKK. It has developed a constructive 
relationship with the Kurdish Regional Government of Iraq, and Turkish 
businesses play a leading role in that region's economic development. 
Turkey had forged a strong partnership with Israel which--while 
interrupted because of the loss of life on the ill-fated direct aid 
shipments to Palestinian territory--may gradually be rebuilt.
    In the past 10 years, Turkey has emerged as a major growing economy 
and a respected actor in key regions: the Middle East, Southeast 
Europe, the Caucasus, Central Asia, Iraq, and North Africa.
    At the same time, two major domestic trends have begun to emerge in 
parallel with these positive accomplishments.
    First, under AK Party leadership, there has been a growing effort 
to push Islam into public life in ways that are distressing to the more 
secular segments of Turkey's population--everything from the 
government's attitudes toward women to restricting sales of alcohol to 
proposing construction of a massive mosque on Camlica Hill and another 
at Taksim square.
    Second, as a governing style, we have repeatedly seen heavy-handed 
tactics applied by the government--for example, in its own rhetoric, in 
its extraordinary pressure on the media, in the use of tax authorities 
to pressure businesses, including mediaowners, and in extended 
detentions without trial of senior military officers based on 
allegations of coup-plotting, or failure to block coup-plotters. The 
Prime Minister's interest in increasing the powers of the President, 
and then running for President himself, only exacerbate the concerns 
felt more widely. This all has a Putin-esque ring to it.
    In this context, the recent protests that sprang up over the 
government's plan to uproot trees and build an edifice at Gezi Park 
reflected far more deep-rooted public concern than just over the park 
itself. The government-dictated plan--and then the harsh government 
crackdown on peaceful protests--reinforced in large segments of the 
population their worst fears about creeping authoritarianism under 
Prime Minister Erdogan's leadership. The initial rejection of protester 
complaints, and call for mass demonstrations to support the government, 
stoked fears of demagoguery and a ``tyranny of the majority.''
    In recent weeks, the situation has cooled somewhat. But the 
protests and the government crackdown highlight the fact that a new 
risk to stability in Turkey that has opened up.
    The AK Party's legitimacy comes not from its expression of Islam in 
public life, but from its obtaining power and then governing through 
democratic means. As fears of over-reach have grown, the government 
urgently needs to reassure the public by reinforcing its commitment to 
using democratic means and instruments to govern. It needs to show 
greater respect for opposition and for those who have different 
political views, rather than simply attempting to overwhelm and defeat 
them.
 critical to a wider region--egypt, syria, and the broader middle east
    The democratic performance of the AK Party is vital not only to 
Turkey's future and that party's continued leadership of Turkey. It is 
also vital in a wider regional context.
    We have seen in Egypt how a Muslim Brotherhood government over-
reached in imposing its will on the population by nondemocratic means, 
only to be overthrown in an increasingly troubling military coup. This 
has caused the Muslim Brotherhood to take more extreme measures, and 
has given rise to growing violence and political instability in Egypt, 
with the military now responsible for dozens upon dozens of deaths. 
There needs to be a democratic middle ground between Islamist and 
military dictatorships.
    The very notion of Turkey as a model or inspiration for the region 
rose from the need to identify such a middle ground. Now, if the most 
successful case of a governing party with Islamic roots, the AK Party, 
were also to succumb to overreach in imposing its will on the entire 
population through undemocratic means, it would give fuel to the 
argument that political Islam itself is fundamentally undemocratic.
    This would be a tragedy for millions of Muslims throughout the 
broader Middle East, who deserve democratically elected governments 
that are generally reflective of society's religious values, while at 
the same time are democratic in the way they govern, ensuring that 
individual rights, fairness, justice, tolerance and pluralism are 
protected.
    Syria is even more critical. The war in Syria has left over 100,000 
people dead, and created over 1.6 million refugees, and over 4 million 
internally displaced persons. Outside forces have intervened, including 
Iran, Hezbollah, Russia, al-Qaeda, and other Sunni extremists. The 
Assad regime has made clear it intends to fight its way back to control 
of the country, likely producing millions more refugees and tens of 
thousands of further deaths. Attacks have already spilled across the 
border into Turkey on a number of occasions. The conflict has also 
stoked increased violence in Iraq, has threatened stability in Jordan, 
and is placing enormous pressure on Lebanon, where one in six adults is 
now a Syrian refugee.
    In this environment, the lack of engagement by responsible members 
of the international community, including the United States, has 
enabled radical elements to increase their influence among the Syrian 
rebels, caused Syrian Kurds, including some who are anti-Turkish, to 
consider establishing an autonomous zone (perhaps partially modeled on 
the Kurdish region in Iraq), and created conditions where the further 
escalation of the conflict is likely. All of this can jeopardize 
Turkish security interests and possibly drag Turkey directly in the 
conflict.
    A Turkey that is democratically stable, prosperous, and closely 
aligning its policies with the United States and Europe can best 
weather these challenges. But a Turkey that is internally divided, 
while perceiving itself to be isolated and under threat from abroad, 
could end up getting dragged into the conflict in Syria as the least 
bad of a series of undesirable choices.
    How Turkey handles its internal democratic struggles can have a 
major impact on the way the crises in the broader region play out. 
Turkey can be a capable regional player and a force for solutions if it 
is producing solutions at home. But a distracted, less stable Turkey 
divided along religious and democratic lines will be less effective 
abroad and could even reinforce the predilections of warring parties. 
Indeed, such a Turkey would be in danger of drifting from its two-
generations-old Atlanticist orientation to something quite different.

                        U.S. LEADERSHIP REQUIRED

    U.S. leadership is absolutely critical--in seeking to stop the 
killing in Syria, in seeking to prevent the continued expansion of that 
conflict throughout the region, in promoting the creation of a middle 
ground between military and Islamist dictators in Egypt and the Middle 
East more broadly, and in encouraging a strong Turkey, as a strategic 
ally, to remain faithful to its own remarkable accomplishments as a 
democracy and an emerging global economy.
    Turkey's own orientation--as a NATO ally, as a European nation, and 
as a vital part of a transatlantic community--is at stake. Does Turkey 
remain part of 
this transatlantic community, or does it seek to go it alone as a power 
broker in a broader Middle East region, unhinged from Western political 
structures?
    It is tempting to think that the United States can let others 
handle these challenges, while we tackle our own financial and economic 
challenges as home. It is tempting to steer clear of foreign conflicts 
and bring our soldiers home. The reality, however, is that when the 
United States does not lead, no one else can--and instead, other 
nefarious forces fill the vacuum we leave in our wake.
    The crises in Syria and Egypt and the deteriorating stability in 
Iraq were not caused by the United States; but lack of U.S. strategic 
engagement has arguably created conditions that have enabled them to 
become much worse.
    Turkey's future trajectory still looks positive, but the pressures 
both internally and externally are mounting. A more active U.S. role in 
addressing challenges in the region together with Turkey as a strategic 
ally--while urging it to live up to its democratic traditions--would 
help make sure that these challenges do not grow to such an extent that 
Turkey itself is at risk.
    Mr. Chairman, members of the subcommittee, that concludes my 
statement. Thank you for the opportunity to testify at this hearing.

    Senator Murphy. Thank you very much, Ambassador Volker.
    We will now go to a round of 7-minute questions, followed 
by a second round.
    Let me start with you, Dr. White. Everyone spent time 
talking about what our response should be. And you referenced 
the fact that we should put our finger on the scale, here. Can 
you talk a little bit more specifically about what you think 
our response should be? Are you speaking about something more 
than just some rather gentle admonitions, which has, so far, 
been our policy with respect to the political uprisings and the 
response from the AKP?
    Dr. White. In fact, I very much agree with Mr. Volker, that 
we do have to do something. I mean, the option of doing nothing 
because it is to our strategic advantage, it may be--it may not 
be to our strategic advantage. Depending on which of those two 
paths Turkey goes down, the solution may no longer lie with the 
AKP; you know, the solution of an actual liberal democracy may 
no longer come out of the AKP camp. It may come out of this new 
constituency that has emerged, but which we seem to have kind 
of ignored. You know, they are just young people, sort of like 
occupy Wall Street, you know, the--gone in a flash. But, in 
Turkey, it is actually a very revolutionary thing. I think it 
is a pivot point and that we do not want to miss that by just 
glossing over it and saying, ``Well, you know, they have all 
these other good qualities. We should just, you know, gloss 
over this.'' Because this is the generation that will then move 
into positions of power later----
    Senator Murphy. So, then, what are you recommending?
    Dr. White. Well, I think----
    Senator Murphy. If it is something more than just general 
admonition----
    Dr. White. There are----
    Senator Murphy [continuing]. What is it?
    Dr. White. Specific things that I think can be done, 
specific areas that the government can be pressured on. One of 
them, for instance, is the law that does not allow political 
parties to be funded. So, you can go and register a political 
party, but you cannot, then, go and find funding for it. So, 
that, in itself, is a blockage in the democratic system. 
Parties that can get over the 10-percent hurdle and get into 
Parliament get state funding. You can start a party by taking a 
bit of another party and running with it, which is what the AKP 
did. But, if you are a constituency like the Gezi protesters, 
you do not have a chance to start a political party to 
represent your interests.
    And the worst part of that is, when I go around talking to 
people about this and asking about it, everyone knows about 
this, but nobody thinks it is a problem, because, as several 
CEOs told me, ``We give lots of money to political parties all 
the time. We know it is illegal, but they just put it in a 
different drawer.'' You know, it is a semantic game. So, 
basically, what is happening in Turkey is that, yes, it is free 
elections, but the whole thing is rigged in a way that allows 
special interests to determine who gets to stay in Parliament, 
who gets to stay in power.
    Senator Murphy. Thank you.
    Ambassador Jeffrey, you cannot solve a problem that you do 
not understand, so I might ask that you talk a little bit about 
the motivations that may underlie the recent downward trend in 
treatment of civil society, but specifically the response to 
the protests, whether or not this was just a total misread on 
Erdogan's part as to the strength of the protesters, whether, 
as some suggest, it was just part of his personality which took 
offense to the fact that people were rising up and objecting to 
decisions he was making. We cannot really condition a response 
unless we really understand why we have seen this slide.
    Ambassador Jeffrey. I would refer back to something that 
Dr. White said when she was talking very eloquently about 
majoritarian rule. And I tried to pick up on it a little bit. 
She said that this attitude has a lot of supporters, adherents, 
in Turkey. That is part of the problem. Certainly, Prime 
Minister Erdogan, another democratically elected friend of 
mine, Prime Minister Maliki, in Iraq, both, I believe, 
ironically, in a majoritarian attitude. It is not uncommon in 
Turkey or throughout the region. And the idea is that if the 
people vote and they put you in power, you basically decide on 
everything from the customs and role of religion in society to 
whether a park can be turned into a shopping mall or a 
artillery museum. And if you challenge that, this is seen as 
not a public protest, but as a threat to the claim the regime 
has to direct Turkey in a direction that, for most Turks, has 
been a huge improvement over what they went through even under 
a democratic system from the 1980s forward. And so, I think 
that there is a reaction of betrayal.
    Again, it is the wrong reaction. It is going to get this 
country into trouble, because, as I said, you cannot have a 
stable--you cannot have an effective actor in the region and a 
strong economy in the long run if you have a majority that 
feels themselves abused and is not part of the system. So, it 
is important that we recognize it.
    A majoritarian attitude toward democracy means a democracy 
in some danger. But, a democracy in danger is not a democracy 
dead. So, at the end of the day, the Turkish people are looking 
at this thing, and I think that, for the moment, we have to 
trust them. They have taken good decisions in the past. All in 
all, as my friend, Congressman Wexler, pointed out, Erdogan has 
been good for Turkey. Turgot Ozal, who was also elected against 
the views of the military in 1983, was good for the country for 
a decade.
    And so, for the moment, I think that the Turkish people 
need a chance to decide how they are going to react to this. We 
have our positions, and we should talk to people privately 
about them, and state them publicly. But, when we ask--when we 
are asked, ``Well, what do we do about it?''--to me, as an 
operator, ``do about it'' means, ``What do we put on the table? 
What do we stop doing what they want, or what do we start doing 
that they do not want?'' And I am not there yet, sir.
    Senator Murphy. OK.
    We will have time for a second round. But, Congressman 
Wexler, you referenced Erdogan's relationship with the 
military. That is, of course, a subject of great consternation 
in Turkey today; in part, because of the sledge hammer trials. 
And when you visit there, you cannot help but hear stories of 
great demoralization within the military. It strikes me that 
we, sort of, always walk a fine line when trying to talk about 
the state of the Turkish military. We do not want it to be 
strong enough that it can essentially pull the strings of the 
political infrastructure, but, frankly, because we rely on the 
Turkish military to lend some regional stability, in 
partnership with the United States, we want it to be strong 
enough to be able to respond to threats. And right now, there 
are some people who think that the pendulum has swung a little 
bit too far away from a military that's strong enough to do 
what it needs to do.
    Can you talk a little bit about that concern?
    Mr. Wexler. Yes. And I think it is a very important point. 
And that is, I think we would all agree that our advice to 
Prime Minister Erdogan essentially would be, ``Mr. Prime 
Minister, most democratically elected heads of state would give 
their right arm to have your economic record. They would give 
their right arm to have the achievements in office that you 
have had. So, think big, be confident, do not be small, do not 
actually revert to a type of leadership that not only 
diminishes you but also jeopardizes the progress in your 
country.''
    Now let me flip that to us. We have to be careful--we have 
to be very careful, particularly in light of some of the 
apparent--not necessarily disagreements, but different points 
of view between us and the Turks. And you raise one. We run our 
country with civilian control of the military. And just because 
the military has been a great pro-American group of patriots 
for many decades does not mean that civilian control in Turkey 
is not as good for the Turks as it is for us here in America.
    So, yes, we should pay enormous respect to the incredible 
allegiance and alliance and friendship between Turkey and its 
military, and our military in our countries. But, we should 100 
percent support the efforts to make certain that there is 
civilian control over the military in Turkey.
    And we run this kind of discrepancy on a number of issues. 
I support our administration's policy in Egypt 110 percent. I 
think what we have done is the right thing. But, if you read 
Prime Minister Erdogan's statement regarding Egypt, or his 
first two statements, they are great statements of Jeffersonian 
democracy.
    So, while, yes, I agree with our position, and I think we 
are right, it does not--we have to be careful, I think, in 
terms of how we distinguish our principled position versus 
their principled position. And they may have different 
interests and, more importantly, a different history.
    He is afraid of a coup, he has spent time--Prime Minister 
Erdogan--in prison. We need to understand those things.
    Senator Murphy. No, and, listen, I do not think--I am 
certainly not questioning the civilian control of the military. 
It is more a question of the quality of the civilian control of 
the military.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I want to try and reconcile a couple of statements.
    Congressman Wexler, you mentioned that Erdogan has 
strengthened democracy. Dr. White, you mentioned that he has 
increased women's rights. But, then we are seeing the reaction 
of the population. Congressman Wexler, you said he is afraid of 
a coup. So, if democracy is strengthening, if women's rights 
are also strengthened, what has happened? I mean, can anybody 
explain that difference?
    We will start with you, Dr. White.
    Dr. White. Well, you have to understand that Turkey can 
only be understood as ``two steps forward, one step back.'' So, 
for all the steps forward that have happened, in terms of the 
penal code and so on, there have been steps backward, as well: 
attempts to roll back abortion, the disinterest in dealing with 
the increasing violence against women, the whole notion of 
the--well, I will just give you a silly example, but it 
captures it. Just a few days ago, a speaker on the government 
television station said that women in the late stages of 
pregnancy should stay at home, because they are obscene and 
unaesthetic.
    So, you know, Prime Minister Erdogan saying women should 
all have three children and stay at home--so, at the same time 
that this discourse is going on, you also have an increase in 
the number of girls going to school. And, in fact, there was a 
government program to pay mothers--because if you pay the 
fathers, they just spend the money, but if you pay mothers, 
they actually get their girls into school, and keep them there.
    So, all these things are going on at the same time. It is 
just that the tendency has reversed, now, so that there is more 
and more pressure on individuals. And when I say ``pressure on 
individuals,'' and particularly women, I do not mean just 
secular urban women. One of the things that has come up, here, 
that I want to disagree with is that there is a split between 
more religious and less religious people in Turkey. In fact, if 
you look at those populations, they are--this is the way it is 
usually talked about, that the populations are very similar; in 
part, because the pious population has become wealthy, it has 
become educated, it has become globalized. And so, they live 
very similar lifestyles and they have very similar desires for 
upward mobility and so on, especially the young people. And so, 
I have met a lot of very pious conservative young people, some 
of them in the Naksibendi order, who are some of the more 
liberal people that I have met, even though they live 
conservative lifestyles. So, they are also not happy with being 
told that they have to have three children and stay at home. 
Right? So, this is not something that just affects the secular 
part of the population.
    Senator Johnson. But, again, the conflict that I am seeing 
is, I am hearing ``strengthening democracy,'' and it looks like 
the problem--the reaction is a limitation of minority rights. 
You know, Ambassador Jeffrey, you talked about, really, more of 
a majoritarian-rule society. So, which is it? I mean, did they 
start out strengthening democracy, and now they are actually 
limiting minority rights over time? I mean, what exactly is 
happening?
    Ambassador Jeffrey My take--but, everybody here knows the 
situation pretty well from one or another standpoint--is that 
they have done all of the above. It is not a happy or simple 
answer, but it is the one that, from my experience in 9 years 
in Turkey, that I have seen. This is a country that is moving, 
I believe, generally toward its own understanding of democracy. 
It will differ, in some ways, from ours, as do European 
parliamentary systems. In other ways, it will disagree 
considerably with ours--again, the greater tolerance for a 
majoritarian system.
    But, at the end of the day, as long as it is a democracy, 
the final arbiter of how the Turkish people think about what 
Prime Minister Erdogan has done and what the Gezi Park 
demonstrations mean for the country will be in the next 
elections. And I would be cautious about us doing anything 
before see how the people react to this.
    Senator Johnson. I mean, it seems to me that Prime Minister 
Erdogan has been consolidating his power, but yet he is 
concerned about a coup? I mean, Ambassador Volker, can you 
explain that?
    Ambassador Volker Sure, thank you. Let me try to put it in 
a slightly different way than the other panelists did.
    I think that, for a long period of time, you could say that 
the glass was more than half full, that Turkey was progressing 
with civilian leadership, democratically elected, ending 
military dominance of politics, performing economically, 
protecting rights of citizens. It was a positive trajectory. I 
think, lately, you have to say it has gone the other way, that 
there has been an effort to put more imposition of Islam into 
public life rather than letting expression of Islam. There's a 
difference. And I think you have seen authoritarian reactions 
and tendencies in the Prime Minister.
    And just to give you one example, the pressure on the media 
in Turkey right now is extraordinary. As Dr. White said, you 
have more journalists in jail in Turkey than any other country. 
They have the tax authorities camped out at some of these media 
outlets, or the owners are so afraid of publishing things, 
there is an enormous amount of self-censorship. This is a bad 
tendency that has grown over the past few years.
    I think that the demonstrations that we saw over the Gezi 
Park protests--the original protests were small, but the 
demonstrations, after the government cracked down, were 
enormous. And this has a lot to do with the growing perceptions 
in the society itself that the government is now overreaching 
and going too far. And that is where I think we now stand.
    Senator Johnson. Congressman Wexler, you had an interesting 
comment. You said, ``A Turkish Islamist is different from other 
Islamists.'' Are they becoming a little more similar over time?
    Mr. Wexler. No, I do not think so.
    Senator Johnson. Can you describe exactly what you mean, 
then?
    Mr. Wexler. Yes. I think the best example might be Prime 
Minister Erdogan's trip to Egypt when President Morsi was first 
elected. And here it was, everybody perceived that Prime 
Minister Erdogan, in effect, was going to go to Egypt and 
congratulate the Muslim Brotherhood on their extraordinary 
electoral achievement. And what was his message? His message to 
the Muslim Brotherhood was, ``Remember, you can be a pious 
Muslim, but be a patriot and a democrat, with a small D. You 
can be a pious Muslim and enhance democracy and equality and 
women's rights and things of that nature in your country.'' He 
came as a hero, and, if I understand it correctly, the Muslim 
Brotherhood could not wait until he left the country.
    Now, this is the dichotomy that we are often presented 
with. On the one hand, Prime Minister Erdogan utters things at 
time toward the Israelis that are utterly offensive, 
historically inaccurate. And yet, at the other hand, when there 
was a bombing in Istanbul, some years ago, that, in part, 
focused on the Jewish community, his reaction about the Jewish 
community in Turkey was perfect, basically saying, ``You attack 
our Jewish community in Turkey, you attack all of us.'' So, it 
is a conflict, which is what you started with. And that is 
Turkey.
    The challenge for us is to use that conflict in a way that 
furthers our interests, to the degree possible. And I think 
Ambassador Jeffrey was perfectly accurate when he said, 
``Public confrontation, as enticing as it might seem, gets us 
very little.''
    Senator Johnson. OK.
    Thank you, Mr. Chairman, I am going to have to go to 
another meeting.
    But, I really want to thank the witnesses' very 
interesting, very thoughtful testimony, and answers to our 
questions. Thank you.
    Senator Murphy. Thank you, Senator Johnson.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you all for being here. I am sorry I missed your 
opening remarks.
    I had the opportunity to visit Turkey for the first time 
last fall, and I was very impressed with the economic 
prosperity in the country, with the openness that I heard from 
the people that I spoke with. But, one of the things that I 
found very interesting--I had a roundtable discussion at a 
university in Istanbul, and one of the things that a number of 
the academics there were talking about was concern about what 
was happening with the crackdown on the media and the press, 
concern, as you all have pointed out, about the increasing role 
of religion and what they viewed as one of the hallmarks of the 
country, as secularism. And, you know, to what extent have 
those elements fueled the recent demonstrations and rioting in 
Turkey? And to what extent do you see Erdogan responding to 
what are very real concerns that are being expressed by certain 
elements of the population?
    And I do not know who wants to start first.
    Mr. Wexler. I am happy to try.
    I think we all in agreement that there is no excuse for 
rolling back any freedoms of the press. And there have been 
unfortunate examples, most recently, where that has occurred 
and Prime Minister Erdogan and his administration would be wise 
to change course and to reverse course.
    As to the aspect of religion, I think, here again, we need 
to be very careful, because what appears to be so in Turkey is 
not always exactly so. And I will try to say this, I hope, 
eloquently enough not to get myself in trouble. But, for 
instance, one of the historic debates in Turkey has been the 
use of headscarves by women in public bodies. Now, that is cast 
in Turkey as a religious debate. In our own country, I think 
most of us would be deeply offended if our government had a 
rule that said a woman could or could not wear a headscarf at a 
university, or could or could not wear a headscarf anywhere.
    So, Prime Minister Erdogan, I believe, has the position 
that that rule should be relaxed. That is cast as a religious 
position. And, no doubt, I suspect, it is based, in part, on a 
religious position. But, the inclination in our country, given 
the region, is that we then assume that this type of religious 
advocacy results in some type of extremism. And I think we need 
to be very careful about that, because clearly in our own set 
of dynamics, advocating for a woman's right to wear a 
headscarf, or not, would probably be cast in terms of privacy 
or freedom.
    Senator Shaheen. I do not disagree with that. I guess I was 
trying to relay what I heard from people that I met with in 
Turkey about what their concerns were, rather than what my 
concerns were.
    Ambassador Jeffrey In that sense, Senator, there is a--I 
would say, a divide in Turkey. I am not so sure it is the 
divide that we see in Gezi Square, for all the reasons that Dr. 
White has explained, that I agree with. But, there is a strong 
minority in Turkey that are very, very prominent in the circles 
that we have the most contact with in the major cities, among 
the better educated, that takes almost a French view of 
laicite, a very dominant state role in, basically, pushing 
religion, in any way, shape, or form, out of the public view. 
And the bulk of the population--there I agree with a comment 
that Congressman Wexler made earlier, that Turks have--and I 
hate the word, but there is no other way to express it--a 
somewhat moderate view of religion, and there is a fair amount 
of tolerance that, in living in other countries that I do not 
want to name, I have not found among the population who are 
practicing Muslims. That is a good thing, and it is something 
we need to preserve. We do not want to accentuate this split in 
society.
    But, I think you are on to something very accurately when 
you talk about putting journalists in jail, because these 
journalists come from the left, they come from the right, and 
there is an authoritarian aura that the country had before the 
Prime Minister--it has, independent of him, today--but he has 
not done enough to pull it apart, and it needs to be pulled 
apart.
    Senator Shaheen. And so, what extent do you think he has 
responded to the demonstrations? And is there anything positive 
that is coming out from that experience, in terms of Prime 
Minister Erdogan's response?
    Ambassador Volker and then Dr. White.
    Ambassador Volker Thank you, Senator. Nice to see you.
    Two thoughts. One of them is that, on your direct question, 
his initial response to the demonstrations was to call out 
bigger pro-government demonstrations. And that left a lot of 
people worried that, ``OK, this is really about majoritarianism 
and imposing a view rather than about listening to different 
voices.''
    Since then, because of the counterdemonstrations and a 
little bit of violence that took place, he has backed off a 
little bit, and there has been a little bit more sense of this 
calming down. But, under the surface, there is still a great 
deal of concern about what are the tendencies of this 
government now?
    To your point on headscarves, I agree with what Congressman 
Wexler said. We would view this through a freedom lens, about 
``this is a personal right.'' In the context of the region, 
though, you have extremist Islamist groups that do try to 
exercise influence through universities and do try to 
radicalize society. Tunisia's a great example, where salafists 
in university have been doing that. That is quite worrying, and 
I think that gets to the worry that some of the more secular-
minded people in Turkey are concerned about. Allowing 
headscarves may seem like a small step, but, to them, it opens 
up the window to that kind of Islamistization of society that 
they would be concerned about. Does not mean that we should 
take a strong view, one way or the other. I think individual 
freedom is important, but that is where the concern is coming 
from.
    Senator Shaheen. Thank you.
    Dr. White, did you want to add to that?
    Dr. White. Yes, thank you.
    I do not think it is at all wrong to talk about Islam and 
Turkey as ``moderate.'' I know it has sort of political 
overtones nowadays, but, in fact, Turkish Islam is quite 
different from Islam in the rest of the region, because it has 
no central luma, it has no central school, other than, you 
know, this government office that, you know, runs the mosques 
and the prayer--the imam schools. But, it has a Sufi 
background, which tends to be more tolerant, to begin with. So, 
it does--it is not centralized, like Islam in other societies.
    And also, there is a real tendency to dislike outsiders who 
are not Turks. And so, that comes in handy. And also that you 
do not speak Arabic. So, when--unless things are translated, 
you do not really have access to them.
    So, they are kind of insulated, or they were until 
recently, insulated from a lot of the transnational Islamic 
movements that were going on. They had total control over the 
school system, for instance--no madrases bringing up--but, 
having said that, I think it is not a good idea to see any of 
these issues in Turkey in terms of secular and Islamic, 
because--I mean, depending on which part of the population you 
talk to, you will get that rhetoric, but that rhetoric is 
that--the rhetoric that defines the ``in'' group as opposed to 
the ``other'' group--those who are against us and those who are 
with us. And they will use language, like ``Islamists''--
``those Islamists'' versus, you know, ``us, the white Turks,'' 
as they call themselves.
    But, that does not mean, as Ambassador Wexler said--but, 
that is really what is going on--right?--that that is just the 
way people talk about it to, you know, position themselves.
    And I do think that one of the things that came out of Gezi 
that is very important that can easily be overlooked if you 
keep focusing on Islam, headscarves, secularism, and think of 
it in those terms, is the fact that that huge mass of people 
that came out defied those categories. And that represents, to 
me, where Turkey has gone. It is almost like the AKP has 
created its own monster. You know, I mean, the middle class has 
tripled, the economy has taken off, all those--you know, they 
are all over the globe now. So, this is a new generation. And 
there are also quite a few people who are older, some of whom 
voted for AKP--who are out there, who just feel like they do 
not want ideological Islam, they do not want ideological 
secularism anymore. They want to move democracy forward. And 
that's where that impetus is going to come from.
    And so, I think that that is a very, very good and 
important thing. And this is the first time that such a 
constituency has come forward in Turkey.
    Senator Shaheen. Thank you.
    Senator Murphy. Thank you, Senator Shaheen.
    I will take my second round and give Senator Risch a chance 
to catch his breath.
    Ambassador Jeffrey, you talked a little bit about 
constitutional reform. There is a very important conversation 
happening right now in Turkey about change to the constitution, 
which could perhaps create a strong Presidency that could 
perhaps be a landing spot for Erdogan. And I guess my simple 
question is, How much should we care about the issue of 
constitutional reform from a perspective of United States 
interests?
    Ambassador Jeffrey The decision of which kind of a country 
to have, or which kind of a democracy, is something that has to 
be left up to the population. A good example is France, after 
many years of a weak and ineffective parliamentary system, did 
go to a Presidential system in the Fifth Republic, under 
Charles de Gaulle, and has been considerably more successful in 
most of the 50 years since then.
    But, in the case of Turkey, this--I mean, from the 
standpoint of a friend of Turkey's, first of all, you approach 
any suggestions with trepidation, because the Turks are 
sensitive to outsiders, particularly Americans, giving them 
advice. On the other hand, we have a lot at stake in Turkey; we 
are close friends; and the important thing would be to take a 
look at what those constitutional changes might, in fact, be, 
and our views on whether this would be good for Turkey and for 
Turkey's democratic development, or not. They are only 
opinions, but there is nothing wrong with us giving them. 
Again, we would have to see what they are going to be.
    It is a very dynamic process, the changing of the 
constitution in Turkey. The population has a big role, because 
there are plebiscites, and they get a chance to choose various 
things.
    And so, I think that there is a lot of opportunity for us 
to make suggestions--quietly to make suggestions, if we feel 
strongly, publicly. In the end, they will decide. But, as 
friends, we can certainly give them our views.
    Senator Murphy. Congressman Wexler.
    Mr. Wexler. May I just quickly----
    Senator Murphy. Sure.
    Mr. Wexler [continuing]. Just add one thing to that?
    If I were to make one recommendation to our Turkish 
friends, in the context of their constitution, I would 
respectfully suggest to them that the separation of powers that 
has been implemented in our country has served our Nation very 
well over a period of time, and particularly given the history 
of Turkey, both far away and present, that it would be prudent 
for them to adopt a system that incorporated into their 
constitution separation of powers in an institutional way.
    Senator Murphy. Ambassador Volker, I will ask this to you, 
but anybody is welcome to answer. You have talked a lot about 
the just really unbelievable economic growth in Turkey under 
Erdogan, something that he is rightfully proud of, and could be 
a fulcrum point with which to influence some of the decisions 
that he may be making on the treatment of political opposition, 
journalists, and generals. Has there been any evidence, so far, 
that foreign investment, for instance, has been affected by the 
response to the protests, or are we too close, at this moment, 
to know whether that is ultimately going to be any lever with 
which to further conversations with Erdogan and his government?
    Ambassador Volker. OK, I will certainly say maybe some of 
my colleagues around the panel even have more depth on that 
than I would, but the thing I would say about that is: If you 
are looking at foreign investment, you are going to be looking 
at the numbers in Turkey, which have been quite good, and you 
are going to be looking at the stability of the government, 
which still looks quite good----
    Senator Murphy. Right.
    Ambassador Volker [continuing]. Because of the popularity. 
So, even though we have had these demonstrations and pushback, 
I think, as an investment perspective, Turkey's going to look 
pretty good.
    The incentive for Erdogan, really, is his own interests. I 
just think it is a matter of our being willing to contribute to 
the communication of how we see things. He is going to have a 
more stable Turkey, and he is going to have a longer run of 
rule in Turkey, to the degree that he seems responsive to the 
needs of all the population.
    Senator Murphy. Any other thoughts on, sort of, the 
direction of the economy and how it may affect his 
decisionmaking?
    Ambassador Jeffrey We have seen a whole series of negative 
economic reports out of Turkey in the last couple of months. 
Some of them are based upon the reaction to the Federal 
Reserve's decision to stop its actions in support of the 
American economy, which, of course, reverberates around the 
entire globe. But, some of them may have been a reaction to 
Gezi Park. Inflation is up. There was a significant drop in the 
exchange markets in--trade is also down somewhat. They are a 
little bit worried about that, their current account basis. 
But, basically, it was the stock market that took the sharpest 
hit and leading to another round of accusations that somebody 
is behind this. Well, what is behind it is people, again, look 
not only at the democracy in Turkey, which is quite strong, and 
the economic underpinnings of the society, which are also quite 
strong, but, rather, Will the place stay stable? And to stay 
stable, you need to pull in everybody. As we have seen in 
societies that have opened the door for women in the workplace, 
this strengthens the society, not only with more productive 
workers, but it makes the social contract better and more 
widely accepted. It is the same thing in Turkey. These people 
who are protesting are Turks. They are productive members of 
the society. They can contribute a 
lot. They are not going to contribute to their potential if 
they are treated the way they are being treated.
    Senator Murphy. Thank you.
    All right. One final question. Our understanding in 
relationship with Turkey has certainly been defined by Erdogan, 
a strong political figure who has transformed that country in 
so many different ways. If there is not a constitutional change 
that allows him to stay in power fairly soon, we will be 
dealing with post-Erdogan Turkey. And an open-ended question, 
What does that look like? What are the political forces that 
are likely to take his place or occupy some partial vacuum that 
is going to be created by an incredibly strong, incredibly 
charismatic, incredibly powerful leader perhaps stepping aside? 
I will, maybe, ask that to the two former Ambassadors first. 
So, maybe start with you, Ambassador Jeffrey, and then ask 
Ambassador Volker.
    Ambassador Jeffrey The Prime Minister has said that he will 
not run for another term as Prime Minister. He could always 
decide that, after a term being out, he would come back. He can 
also be the head of the party and not be the Prime Minister. 
There are various scenarios that he could see for himself.
    I think that the AKP, while it is associated with him, has 
many other very strong leaders. Deputy Prime Minister Arinc and 
President Gul are only two of the many. They have a very 
effective economic team. They have roots throughout the 
society. So, I think that party is going to be a real contender 
for a long time.
    Again, you could see the President--or, rather, the 
Presidency going to Erdogan without a change to a Presidential 
system. The President in Turkey has teeth, constitutionally, in 
ways that most Presidencies in Western Europe do not have. It 
is not like the French Fifth Republic, but it is also not like, 
say, Italy. The President has considerable power and a great 
deal of prestige, and Prime Minister Erdogan could use that as 
a bully pulpit, as well.
    So, there are various scenarios there, but I think most of 
the scenarios, in my mind, begin with the AKP holding a 
decisive role in Turkish society in the future.
    Senator Murphy. Ambassador Volker.
    Ambassador Volker Very quickly. I agree with all that.
    First off, the AK Party, no doubt, will remain the dominant 
party for some time. Without Erdogan as its titular leader, I 
think maybe some of the authoritarian tendencies that we have 
seen lately may dissipate. I do not know that those are 
reflected as much in the party.
    I think Prime Minister Erdogan's first choice would be to 
enhance the powers of the President and become the President. 
If that does not work out, I think that we would see a 
phenomenon of an extremely powerful person with a great deal of 
influence in Turkey, through businesses and through the AK 
Party, outside of political power. And that would be a very 
different phenomenon. We would have to figure out what that 
really means.
    Senator Murphy. Senator Shaheen.
    Senator Shaheen. Thank you.
    One of the other meetings I had a chance to do last fall 
when I was in Turkey was to visit with the ecumenical patriarch 
of the Orthodox Church, His All Holiness Bartholomew. And we 
discussed some of the concerns that he and the church have had 
in opening up the Halki Seminary in Turkey. And His All 
Holiness pointed out that he continues to talk with the Turkish 
Government about how to reopen that theological school; and 
certainly, the return of some of the land around it has been a 
very good sign.
    But, can any of you comment on what the current status of 
that issue is?
    Dr. White. As far as I understand, the opening of the 
seminary has been balked by the question of the curriculum and 
whose authority the curriculum would be under, because the 
Turkish Government expects it to be, basically, like any other 
school in Turkey, that the curriculum would be under its 
authority and that is a base of contention.
    But, there are also other issues, of course. You know, as I 
said before, it is two steps forward, one step back. Properties 
have been returned, but not all of it. There have been corrupt 
practices, where the state has held back some of the property 
or some of the money. So, there are lots of wheelings and 
dealings around these that are not always visible.
    I would like to add that I am one of the people who expect 
the AK Party to split once Erdogan is--assuming the Prime 
Minister is no longer Prime Minister. So, I think that--I know, 
privately, that there is a lot of dissatisfaction, within the 
party, with the Prime Minister's policies. Some of those, I 
mentioned before, primarily the Syria policy, which has 
disturbed a lot of Sunnis, as well, not just the Alevis. And I 
think that there are people who would like to just move away. 
And that might be a good thing, because that might be a home 
for this next step in completing the democratization process 
that I think Turkey has embarked on.
    Senator Shaheen. Ambassador Wexler--Congressman Wexler.
    Mr. Wexler. May I just add? In my experience, there is 
maybe nothing more important, quite frankly, than Senators and 
Representatives advocating on behalf of the Greek Church there. 
We are not ignored, you are not ignored. And my understanding 
is, while we are way, way, far away from being successful, that 
progress is potentially in order, but that the role of very 
interested people, like yourself, is essential. And the fact 
that you did that, and I would say, respectfully, as you deem 
fit to follow up, it is a very legitimate issue that would 
serve Turkey's interests to open up.
    Senator Shaheen. Well, thank you. I did have the 
opportunity to raise the issue with President Gul and also with 
the Foreign Minister while I was there, and I agree, it is 
something that is important for them to hear, that this is an 
issue that we and many in the world are watching very carefully 
and hope that it can get resolved.
    Dr. White, since you raised the issue of Syria--and you all 
may have addressed this before I got here, so forgive me if I 
raise it again--but, to what extent is Turkey's role in what is 
happening in Syria--the number of refugees that are now in the 
country--how is that affecting internal politics in Turkey?
    Dr. White. It is absolutely crucial to internal politics, 
in myriad ways. One of them is just this increasing 
polarization that is fanned, for reasons that remain obscure to 
me, by Prime Minister Erdogan, who recently named a bridge 
after--he was going to name the Third Bridge after Sultan 
Selim, who is famous for massacring Alevis. So, why he would do 
that, in this present context, is beyond me.
    The presence of al-Nusra and the jihadis, at the invitation 
of the Erdogan government--you know, the presence of these 
people on the Turkish side of the border, where they are 
basically living and then going back and forth to Syria, is 
destabilizing. In addition to the destabilization caused by the 
refugees and the munitions coming over the border, there are 
these jihadis living there who are frightening the local Sunni 
villagers and causing friction between Sunnis and Alevis, who 
really--the Turkish Alevis really have not that much to do with 
what is going on in Syria, but that is spilling over, and they 
are fleeing the border--I heard this from an MP--a CHP MP from 
Hatti--who goes back and forth, and from several other people 
who were there. But, it is an enormous problem. And, you know, 
that is spilling over into Turkish society.
    It is a puzzle, because Prime Minister Erdogan, several 
years ago, was very conciliatory toward the Alevis. You know, 
so, again, what--in the last 2 years, something has happened, 
and that is the million-dollar question; nobody really knows 
what has happened to cause him to backtrack to such an extent 
that he is undermining his own positions of--that he has--like, 
for instance, there is--again, with Syria, there is the Kurdish 
issue. Right? So, the PKK and Prime Minister Erdogan have 
settled on a cease-fire that may actually lead to an end to 
this decades-old war between the PKK and the Turkish military. 
And this is what led lots of people to say, ``Well, maybe he is 
such a great statesman.'' But, in the meantime, after the Gezi 
protest began, he then called his interlocutor in this peace 
deal a terrorist. He then said, in public, ``Well, we're not 
going to do X, Y, and Z,'' which was part of the agreement. And 
so, why would he do that?
    And so, after these statements, the Kurds, who had not 
participated in the protest initially, because they were, you 
know, afraid of doing damage to the peace deal, they joined the 
protesters. It is like this snowball, getting bigger and 
bigger, rolling downhill.
    But, why would he do that? I do not understand--I do not 
think anyone does--what exactly is going on there. That is sort 
of, like I said, the million-dollar question.
    Senator Shaheen. Thank you.
    Congressman Wexler.
    Mr. Wexler. May I just offer, maybe, a little bit different 
perspective? And not disagreeing with any of the facts that Dr. 
White presented--and surely I would not condone the naming of 
infrastructure, and things like that, after nefarious people--
but, what is the basis of Prime Minister Erdogan's policy? The 
basis of his policy was objecting to the humanitarian treatment 
of President Assad to his people.
    So, I think it is important for us, again, to contextualize 
what is occurring. Prime Minister Erdogan, in Turkey, hosted 
the original opposition to President Assad. Now, we can agree 
or disagree, debate our own policy, but Prime Minister 
Erdogan's initial policy in Syria was in contrast to what he 
thought was the improper violence being imposed by President 
Assad on his own people. I do not think we would ever criticize 
that.
    Now, his policy may have gotten a bit distorted as things 
have gotten much muddier in Syria, but I think, as Americans, 
quite frankly, we should be very careful before we start 
criticizing other world leaders who have taken a fairly 
principled position in opposition to a whole lot of killing 
that's occurring in Syria. I just think we need to be careful.
    Senator Shaheen. Is it your belief that there has been a 
lot of criticism of Prime Minister Erdogan because of his being 
willing to accept the refugees into Turkey and to be critical 
of what is happening in Syria?
    Mr. Wexler. Well, I think it is evident, from my 
understanding, that it is a controversial position that Prime 
Minister Erdogan has taken within his own Turkish nation 
regarding the policy toward Syria. Some will view his policy as 
being confrontational, some will view his policy as having, in 
essence, enticed the Syrian Government to create violence in 
Turkey and then causing death and destruction on the Turkish 
border, and maybe even exasperating the number of refugees that 
are now there.
    I would not dare make a judgment whether it is right or 
wrong. Surely, I think we probably would all agree it is 
controversial. But, I also think we would be mistaken not to 
understand the somewhat admirable position, principally, that 
Prime Minister Erdogan took from the inception.
    Ambassador Jeffrey I would like to defend Erdogan on that 
point, as well. There is a general consensus, everywhere but 
Moscow, Tehran, and Hezbollah land in southern Lebanon, that 
Assad should go, but there is absolutely no consensus on how 
the hell to do that. And the result is, everybody is sort of 
pointing fingers at each other. Those of you who can remember 
the 1990s, in Bosnia we had a very similar situation until the 
United States actually took a very firm, very courageous 
leading position, and then everybody sort of fell into line.
    Prime Minister Erdogan, I believe, would be a very 
effective interlocutor and partner if we had a policy that we 
could clarify to him and he could believe in.
    Senator Shaheen. Just to be clear, I was not being critical 
of the Prime Minister.
    Dr. White. May I just add something there? That I do not 
think that I was being critical of the Prime Minister in that 
regard. He has spoken up against the Syrian regime's 
depravities, despite the fact that his population is against 
any kind of activity--you know, Turkish activity in the region. 
So, he has taken a principled stand, but I do not think that is 
quite the same as his statements about Alevis within his own 
country. And I think that we need to separate those.
    The Kurds are also important, because they are now--the PKK 
is now operating together, or joining together, with the Kurds 
in Syria to--it appears that they are about to declare an 
independent entity, or a semi-independent entity, at least join 
together with them. And so, it is in their interest right now 
to have a peace deal with Turkey, because they cannot be 
bothered with that distraction, at the moment, when all these 
goods things are happening for them across the border.
    And Erdogan also has a very good reason for wanting peace, 
because that region on the Iraqi border, that part of Turkey is 
very important for future economic development. The oil is 
going to come out through there, and so on.
    So, everybody has everything to gain from this peace deal. 
So, again, the question is why he would be undermining it at 
this moment.
    Senator Murphy. Thank you very much, Senator Shaheen.
    Thank you very much to our witnesses. We could, frankly, 
spend about 2 days--we have only touched on all of the topics 
that are of importance to this relationship.
    I thank Senator Shaheen, in particular, for bringing up the 
issue of Syria. During my last trip to Turkey, which was just a 
few months ago, I actually got the chance to go down and visit 
the refugee camp in Kilis province, visit with the governor. 
And you understand very quickly, when you spend a little bit of 
time down along the border, what sacrifice Turkey is making. We 
certainly have put up some of the money to build these camps, 
but the Turks are doing this at great risk and at great 
expense. It is something that we should be very, very thankful 
for.
    And just another reminder of how important this 
relationship is. I spoke to Ambassador Tan several times about 
this hearing, and what I tried to convey to him, who is a great 
friend of mine and of this committee, is that with the success 
of the Turkish model comes high expectations. We would, 
frankly, wish for the problems we have in Turkey on Syria or 
Egypt or Iraq. This is a problem, at some level, that we 
welcome, because we see the potential of a trend line toward a 
more democratic and more inclusive Turkey.
    To that end, the Ambassador has asked that we place into 
the record a statement that he has provided the committee from 
Professor Kanat at Penn State University, which, without 
objection, we will happily do.
    Senator Murphy. Thank you, again, to our panel for being 
here today.
    And, with that, this hearing is adjourned.
    [Whereupon, at 4:30 p.m. the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Prepared Statement of Kilic Bugra Kanat, Assistant Professor of 
  Political Science, Penn State, Erie and Research Fellow at the SETA 
                       Foundation, Washington, DC

           WHERE IS TURKEY HEADED? GEZI PARK, TAKSIM SQUARE, 
                  AND THE FUTURE OF THE TURKISH MODEL

    For the last 2 months, Turkey has received increased attention due 
to the protests that took place in Gezi Park at Taksim Square. The 
protests, with their origins, duration, and forms are unprecedented in 
Turkish political history. They created a paradoxical situation in the 
sense that the original Gezi Park protesters were mostly middle-class 
citizens who grew in number and were empowered during the AK Party 
decade, due to a stable and high economic growth rate that this party 
has achieved in the last 10 years. The demonstrations also took place 
with the help of democratic reforms and the opportunities that these 
reforms provided during the same years. The Turkish Government--which 
for many analysts had an impressive record of political and legal 
reforms, including eliminating the practice of torture, achieving 
active civilian control of the military, and being in the process of 
solving the most significant problem of Turkish democracy, the Kurdish 
question--was seriously tested by these protests. It was difficult for 
the Turkish Government to control the events because the protestors 
were not a homogenous group of people with a specific set of goals and 
the rapid development of events in a short period of time made the 
protests difficult to contain and manage. More importantly, these 
protests represented a new form of participatory political citizenship 
that has exhibited itself not only in Turkey but in other countries 
like Brazil. This new street politics can pave the way for a more 
inclusive and participatory form of democracy. However, it will only 
succeed in doing so if the government can handle the aftermath of these 
protests by successfully distinguishing those who have some legitimate 
demands from the political opportunists, and addressing and 
accommodating some of these demands within the framework of a 
deliberative democracy.

Gezi Park Protests
    The Gezi Park protests started in late May as a result of the 
reaction of some local groups and environmental activists to the 
relocation of trees in one of the central squares of Istanbul. The 
protests attracted widespread international attention and have been 
debated among the policy and scholarly circles for the last 2 months. 
However, in order to understand the true nature of the events, its 
origins and its motives, one needs to focus on how the events unfolded 
and how they evolved throughout June. This evolution will show 
different layers of protesters with different motivations and a 
transformation from a local environmental protest, to full-scale 
antigovernment demonstrations.
    The project that led to the protests was part of the Taksim urban 
development plan that entailed the reorganization of traffic in this 
heavily jammed square of Istanbul, as well as the reconstruction of 
several historical buildings, which were destroyed in the 1940s. When 
it was first announced, this project in its entirety, gained popular 
support. However, the fact that the rebuilding of Topcu Kislasi, an 
Ottoman era military barracks, necessitated the relocation of some of 
the trees in Gezi Park, created dissatisfaction among different local 
groups.
    Days before the relocation of the trees in Gezi Park, a small crowd 
of environmentalists and local residents of the Taksim neighborhood 
started a protest campaign by organizing sit-ins and camping in the 
park. The construction activity stopped due to the occupation of the 
park by protesters. Early in the morning on May 30, police launched a 
raid in order to empty the park of the protestors. The heavy handed 
reaction by police toward the protesters, in particular the use of 
pepper spray, excessive use of force, and the burning of the tents in 
the camp created a huge public reaction. A call by online activists to 
support the protestors at Gezi Park turned out to be effective and 
brought large crowds to Gezi Park in a short period of time.
    During the next 2 days, the number of protestors coming to Taksim 
Square grew exponentially. Neither police nor protestors were expecting 
such a vast turnout at Taksim Square. The use of water cannons and 
excessive amount of tear gas by a limited number of police officers 
added to the anger of demonstrators. As some of the media outlets 
started to ignore the events in their broadcasts, online activists took 
the stage. Although some of these online activists provided information 
from the field, they also contributed to the increasing level of 
misinformation. For example, in several instances, online activists 
claimed misleading information about the casualties and police 
brutality; this increased the level of anger and caused more people to 
take to the streets.
    As the number of protestors grew, the message and the motivation of 
the protests began to differ. The core group of protestors, whose main 
goal was the protection of trees in Gezi Park, began to lose their 
voice within the greater number of protestors. This original group of 
Gezi Park protestors was made up of mostly middle-upper class, well-
educated urbanites who were predominantly in their youth--the majority 
of the protesters were university students. After launching their 
protests, the initial small group of people was endorsed and joined by 
another group who had similar grievances. The main concerns of this 
first group of protestors were some policies that the Justice and 
Development Party (JDP) enacted, such as the regulation of alcohol 
sales and the government's policies of urban development. In 
conversations with the participants of the protests it became clear 
that most of these individuals wanted to be included in the 
decisionmaking process regarding urban development projects. The 
creative nature of their protests and the use of popular culture and 
humor in their messages helped them gain more support from different 
segments of society. Their ability to use social media effectively 
spread their message around the world and got the attention of the 
international media.
    When Gezi Park was emptied, the members of this group launched a 
new form of protest although for a shorter period of time. However, 
this did not help them to develop a coherent strategy. In the absence 
of a clear message and strategy, international media attention created 
a sense of triumph for the protestors. This attention led to tactical 
and operational victories to shape the strategy of the Gezi Park 
protesters. This lack of unifying message was obvious from the slogans 
of protesters; the most prominent of these slogans was ``Kahrolsun 
Bagzi Seyler'' (Damn to Certain Things). Excitement, which came as a 
result of the empowerment the protesters felt and confusion regarding 
an overall message, caused these groups not to realize when they had 
gained a limited victory by making the Prime Minister of the country 
meet with protesters, listen to their demands and offer a referendum 
for a solution to the problem. Instead of enjoying their achievement, 
they continued an endless political confrontation with the government.
    Later, some other groups with similar characteristics joined the 
protests within the ranks of this first group. For example, groups 
which suffered from excessive use of police force in separate occasions 
began to demonstrate solidarity with the Gezi Park protesters. In 
particular, soccer fans of the Besiktas Sports Club, which had clashed 
with the police forces a month ago, also joined the demonstrations. The 
support of these additional groups also served to expand the location 
of the protests and extended the protests from Taksim towards Besiktas. 
Because this first group lacked organization, leadership and thus a 
nonviolent discipline, there were some violent incidents in the first 
few days of protests such as damage to public property and burning down 
public busses.
    The second group of protestors, was made up of members and 
sympathizers of the Republican Peoples' Party (RPP), the main 
opposition party in the country. In addition, some other ultrasecular 
and ultranationalist groups who were increasingly disenchanted by the 
political system joined the demonstrations in the next few days. In 
particular, the RPP decided to cancel a previously planned political 
rally in Istanbul, encouraging their followers to support the Gezi Park 
demonstrations, resulting in a transformation in the makeup of 
protesters. In terms of numbers, these groups started to dominate the 
demonstrations not only in Istanbul but also helped to spread it to 
different cities around Turkey through their local organizations and 
branches. The impact that a small number of protestors in Gezi Park 
provided an opportunity for the RPP, who has been paralyzed by internal 
divisions and ideological clashes in the last few years, to gain 
visibility in the public sphere.
    The main motivations of this second group of demonstrators were 
twofold. Some of these demonstrators had grievances related to 
democratic reforms of the government in recent years. These reforms 
caused some old guards of the state establishment to lose their 
privilege, power, and status. Especially the end of military tutelage 
made some members of these groups disenchanted. In addition, some of 
these ultranationalist groups were against recent attempts by the 
Turkish Government to resolve the Kurdish question through 
reconciliation. Secondly, there was an increasing amount of despair and 
hopelessness among the members of the RPP and other opposition groups. 
In the last five elections, the ruling Justice and Development Party 
(JDP) won landslide victories, and public opinion polls demonstrated 
the continuation of this trend in the coming local and general 
elections. In the absence of any hope to defeat the ruling party at the 
ballot box, some members of this second group started to shift their 
attention to the streets rather than the democratic process as a way of 
gaining supporters and creating mobilization at the grassroots level.
    With the involvement of these groups, the sheer number of 
demonstrators in the RPP and ultrasecular groups transformed the nature 
of demonstrations. A more heterogeneous group of demonstrators emerged 
and the nature of the protests evolved from environmentalism and 
protesting urban development plans to antigovernment rallies. The 
creative opposition of the first group of Gezi Park protestors was soon 
hijacked by this second group of ultrasecular and ultranationalists 
groups. The size and organizational strength of the second group 
overshadowed the earlier, more inclusive nature of the original 
protesters. This situation also led to some discontent among the first 
group of protestors and even some skirmishes among different groups 
emerged during the protests. For instance, when ultrasecular groups and 
the members of the RPP chanted slogans such as, ``We are the soldiers 
of Mustafa Kemal,'' the first group protested and ridiculed the 
militaristic and ultrasecular slogans by chanting, ``We are the 
soldiers of Mustafa Keser,'' a well-known folk music singer.
    In addition to difference in ideology, the first two groups of 
protesters were in direct confrontation regarding their attitude toward 
others. For example, the anti-Western and Euro-skeptic attitude of the 
RPP and ultrasecularists were in contradiction with the more globalized 
groups in Gezi Park whose most important source of legitimacy was the 
universality of their message and demands. Later, during conversations 
with some members that supported Gezi Park's original protesters, they 
expressed anger toward the infiltration by ultrasecular and 
ultranationalist groups to their movement. After the addition of these 
groups to the protesters, the government's reaction became more severe. 
While the messages of the first group were lost in translation, the 
communication between the government and the first group was 
interrupted by the addition of the second group. With no formal 
organization, no leadership and no spokesperson to express the limited 
goals that the members of the first group endorsed, the messages and 
protests of Gezi Park started to be represented and even owned by the 
main opposition party.
    During this period the government started to handle the crisis by 
responding to the RPP, which further mobilized members and supporters 
of the RPP and created further anger among the original Gezi Park 
protestors. This situation created a trilateral tension in which, the 
JDP reflected its reaction to RPP, whereas the RPP was channeling the 
political dynamism from the first group to criticize the JDP. 
Meanwhile, Gezi Park protestors reacted both to the JDP government for 
dismissing their demands and the RPP for trying to own the movement. 
This created lack of dialogue between the ruling party and protestors 
for the first few days of the demonstration during which it could have 
been contained. In fact, although at the beginning, the lack of formal 
organization and leadership in the first group was depicted as the 
strength of the movement, in a short period of time with the inclusion 
of the RPP, the absence of any organizational skills and enterprise 
turned out to be a weakness of the movement.
    The most destructive groups among this heterogeneous group of 
protesters were the third group of marginal leftists who tried to use 
the movement and protests for their own narrow and radical goals. These 
groups were mostly responsible for the destruction and looting of some 
of the stores around Taksim and Besiktas. They not only started to 
throw rocks at the police but also attempted to break in Dolmabahce 
Palace, the location of the Prime Minister's Istanbul office. The 
members of these groups who were seasoned in clashes with police and 
manipulating the crowds, started to occupy Taksim Square adjacent to 
Gezi Park. In most of the instances these marginal leftist groups used 
peaceful protesters as human shields, making them difficult to locate. 
As the level of violence and provocation of these groups increased, the 
police reaction. Especially during the last days of the demonstrations, 
while Gezi Park was still occupied, these groups started to use rocks, 
knives, and Molotov cocktails in their clashes with police.
    After the initial mishandling of the crisis, the Turkish Government 
tried to make a distinction between these groups, promising to listen 
to legitimate demands about Gezi Park. However, in most instances it 
was difficult to distinguish these groups from the Gezi Park 
protestors. These groups also added to the already existing disruption 
of communication between the Turkish Government and the first group of 
protesters. The obvious goal of these groups was to overthrow the 
democratically elected government through illegal means and violence. 
Although there was not a unifying ideology or goal among these groups, 
and although there were sporadic clashes among different cliques, the 
belief for a possibility to overthrow the government unified them at 
Taksim Square. These individuals had different motivations than the 
first two groups of protesters. They were upset with the government 
mostly for ideological reasons, blaming the Turkish Government to be a 
puppet of the United States and imperialist forces. Around Taksim 
square it was possible to see the posters of Mao Zedong, Stalin, and 
Lenin. Some of these groups were also reactive to Turkish policy toward 
Syria since the beginning of the uprising in this country. They were 
critical of the Turkish Government for taking a position against Bashar 
al-Assad's brutal crackdown of the opposition alongside the United 
States. They were also angered by the increasing strength of the market 
economy in Turkey and in their slogans and flags it was possible to see 
their praises for socialism and communism.
    The spread of the movement to multiple cities and the emergence of 
different layers of groups made it difficult for the Turkish Government 
to diagnose the events. The rapid development of events, its unexpected 
nature, and the short timeframe created every condition for having 
problems managing a crisis situation. After the initial analysis of the 
events, the Turkish Government attempted to distinguish these groups by 
trying to communicate with the first group of protestors. President 
Abdullah Gul and Vice Prime Minister Bulent Arinc both stated that the 
demands and messages of the demonstrators have been heard and would be 
considered. There was even an apology to the Gezi Park protestors by 
Vice Prime Minister Arinc, who met representatives of the first group 
of protesters. Later, when he returned from his trip to Northern 
Africa, Prime Minister Erdogan also met with the protestors in person 
for a 4.5-hour-long meeting. However, this did not help the resolution 
of the problem and repair the damage of relations between the 
government and the first group of protesters.
    After one of these meetings, Prime Minister Erdogan announced that 
the government would respect the court injunction blocking the 
redevelopment project. If the court decided to remove the injunction, 
the government promised that it would hold a plebiscite, which proved 
insufficient to allay the concerns of the protestors. Dissatisfied, 
protestors announced that they would continue to occupy the park and 
hold demonstrations, which resulted in further police action to clear 
the park and Taksim Square.

The Political Consequences of the Protests
    The protests demonstrate several issues regarding the state of 
Turkish democracy and politics. First of all, the most significant 
lesson of these events for Turkish democracy was the necessity of a 
viable opposition for a functioning democratic system within a country. 
While this has long been a topic of debate in Turkey, the Gezi Park 
incidents demonstrated the dramatic consequences of the lack of a 
strong opposition party. During the Gezi Park events, especially within 
the first group of demonstrators, the main reason behind going out into 
the streets was not only their anger toward the ruling party, but also 
their frustration with the incapability of the opposition parties to 
represent them and voice their concern through democratic channels. 
Since the rise of the JDP, there has been a debate in the political 
spectrum regarding the absence of an alternative to the JDP. The 
economic and political success of the party, combined with the failure 
of the opposition parties to become a viable alternative for the ruling 
party, created a hopelessness and sense of frustration among some 
segments of the Turkish society. Under these circumstances, the crowds 
went to the streets to express their political demands and grievances. 
However, if not contained and managed successfully, these events could 
be the precedent to a problematic situation for democratic institutions 
in countries, such as Turkey. The belief that taking to the streets can 
be an alternative to the electoral ballot can result in dire 
consequences for the functioning of democracy in a country as well as 
for social relations among members of different factions.
    Secondly, the protests demonstrated the emergence of a new form of 
political citizenship that demands a more participatory political 
structure. Part of this demand comes from lack of trust and confidence 
in political parties that are supposed to represent the political views 
of these citizens. Just like the Occupy Wall Street movements, some 
segments of the society were increasingly disenchanted with the 
political process and political parties. However, the other more 
important cause is the development of social media and increased 
opportunity for individuals to politically express themselves. The 
spread of demand for a more direct form of participatory democracy is 
becoming more universal. The increase of street politics in different 
countries as well as transnational movements will be significant drives 
in the politics of democratic countries in the coming decades. This 
situation has demonstrated itself in street protests in Brazil and 
Turkey in recent days.
    While both are examples of protest in the name of democratic 
representation, it is imperative to draw a distinction between this 
push toward a more participatory citizenship from the people's 
movements in more authoritarian countries, such as the Arab revolutions 
that have taken place since 2011. Unlike the Arab revolutions, these 
demonstrations took place in democratic countries against the ruling 
parties who are democratically elected and have democratic legitimacy. 
Whereas the Arab revolutions stood against authoritarian regimes with 
no popular mandate, the first group of Gezi Park protesters advocated a 
qualitative transformation in the nature of democracy, from a 
majoritarian one to a pluralist democracy. The street protests and this 
new type of political citizenship will likely broaden its scope in the 
coming years. The universal language, transnational networks and the 
contagious nature of these protests demonstrate that other democracies 
may also face similar movements in the future. Governments in power 
need to be responsive to the demands of these groups and adjust to this 
new language of politics.
    Thirdly, the protests also demonstrated a sociological reality in 
the context of Turkey. Gezi Park showed that the most significant force 
behind the protests is the rise of a new middle class in Turkey. 
Significant economic growth in the last 10 years contributed to the 
empowerment of a new middle class and an increase in their numbers and 
stature among different segments of the society. This phenomenon is 
especially apparent among the youth which had grown up within these 
middle-class families; they have proved to be more educated, 
economically better off, and increasingly globalized. Because of the 
lack of political organizations, these groups are having difficulty 
finding representation in the mainstream political framework. This 
middle-class mobilization will be almost inevitable in countries with 
stable and high economic growth in the coming years.
    Finally, regarding the democratization in Turkey, the events 
demonstrated that democratization is a moving target and the increasing 
demands and expectations of the people make a new set of adjustments 
and recalibrations in democratic reforms necessary. The Gezi Park 
events launched a new wave of debates among policymakers and scholars 
regarding state-society relations and a more participatory form of 
democracy. Gezi Park was unique in Turkish political history in regards 
to its causes, development, and will also be unique in terms of its 
consequences. The debates during its aftermath will contribute to the 
advancement of the level of democracy in Turkey and will be taken into 
consideration during the creation of a new constitution.

The Impact of Gezi Park for the ``Turkish Model''
    Before deliberating on the impact of Gezi Park on what we call the 
``Turkish model,'' it is imperative to discuss the origin of the model 
debates. Since the foundation of the Turkish Republic, Turkey has often 
been presented as a model for Islamic countries around the world. The 
last batch of this model debate took place when the Central Asian 
Republics declared their independence. Many scholars in the United 
States and European countries depicted Turkey as a model for these 
countries. In these discussions, the concept of being a model was 
composed of Turkey's democratic system, secular character, and pro-
Western orientation.
    The model state debate was revived after the start of the people's 
movements in the Middle East in December 2010. Although it was never 
pronounced by the Turkish state, the debate on the Turkish model was 
developed by Western scholars during the Arab revolutions. The 
democratization experience in Turkey can be a source of inspiration, 
and if needed, a motivation for the democratic movements of Middle 
Eastern countries. Otherwise, every country should have their own 
democratization experience and needs to develop its own unique path 
toward that goal by considering different variables related to 
politics, culture, economy, and society.
    This debate on the Turkish model fails to account for several 
nuances between the Turkish case and revolutions in the Arab countries. 
First of all, the proponents of this model indicated several pillars of 
the Turkish model, including the development in the field of 
democratization, stable economic growth, and independent foreign policy 
in the last 10 years of the Justice and Development Party. However, 
Turkish democracy reached this level after 50 years of experience with 
parliamentary democracy which had been interrupted every decade by the 
military at least once. The last one of these military interventions, 
though indirectly, took place in 2007 when the Turkish military 
declared an ultimatum in regards to the Presidential elections. It 
would be unfair to compare the first years of the democratization of 
Middle Eastern countries with the latest years of the 60-year-long 
democratization experience of Turkey.
    Secondly, the argument itself has a problem due to the state of 
Turkish democracy. The active civilian control of the military was 
achieved in Turkey only a few years ago. Several coup plans that have 
been unearthed in recent years show that until recently, some segments 
of the Turkish military were planning another coup against the 
democratically elected Government of Turkey. Moreover, the ruling party 
of Turkey was about to be closed down by the Constitutional Court in 
2009, and actually failed to do so because of a single vote. If this 
decision was taken, the party would be closed down and the prominent 
leaders of the JDP would be banned from running for public office. 
Furthermore, there are some serious issues of human rights and 
liberties that need to be addressed, including the ban for women with 
headscarves to become government employees and the restrictions that 
antiterrorism laws and regulations brought, which have become important 
impediments of the freedom of expression and the press in Turkey.
    However, these problems do not mean that Turkey is, or is becoming, 
an authoritarian country; rather it is on the path toward a more 
advanced level of democratization. The solution of the Kurdish problem 
through reconciliation and a new civilian constitution would contribute 
to this advancement. By taking into consideration some legitimate 
demands of the Gezi Park protests, the government would move toward a 
better place in terms of basic rights and liberties. This would not 
only create a better democracy in Turkey, but also make Turkey a better 
source of inspiration for countries in the Middle East. In particular, 
for countries such as Egypt, which has been experiencing a reverse wave 
of democratization in the last month, the Turkish experience provides a 
lot of important lessons on how to deal with a tutelage system. In the 
future, all of the new and mature democracies in the region need to 
learn a sense of respect for democratic institutions and processes, and 
for more inclusive forms of democracy. In return, the Gezi Park 
protesters and those who are disenchanted from the political parties in 
Turkey have to find a way to express themselves within the legitimate 
channels of democratic processes. The streets are not an alternative to 
the ballot box and power transitions are only meaningful and peaceful 
when they occur through democratic means. If Turkey can handle this 
crisis by reaching a more advanced level of democratization, it will be 
an example of how other countries can handle the problems of this new 
street politics.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
